<html>
<title> - UNDERSTANDING THE BUDGET AND STRATEGIC AGENDA OF THE SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   UNDERSTANDING THE BUDGET AND STRATEGIC AGENDA OF THE SCIENCE AND 
                         TECHNOLOGY DIRECTORATE

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                       THREATS, CYBERSECURITY AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2007

                               __________

                            Serial No. 110-6

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
35-265                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
      ------

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas
      ------

                               Ex Officio

BENNIE G. THOMPSON, Mississippi      PETER T. KING, New York

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     5
The Honorable Marsha Blackburn, a Representative in Congress From 
  the State of Tennessee.........................................    28
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.s. Virgin Island.........................................    29
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    26
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    31

                                Witness

The Honorable Jay Cohen, Under Secretary, Science and Technology, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     7
Accompanied by,
Mr. Richard Williams, Chief Financial Officer, Science and 
  Technology, U.S. Department of Homeland Security:
  Joint Prepared Statement.......................................    10

                               Appendixes

A.  Additional Questions and Responses:
    Responses from Hon. Jay Cohen................................    43

B.  Attachments..................................................    59


                      UNDERSTANDING THE BUDGET AND
                   STRATEGIC AGENDA OF THE SCIENCE
                       AND TECHNOLOGY DIRECTORATE

                              ----------                              


                      Wednesday, February 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
            Subcommittee on Emerging Threats, Cybersecurity
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
Room 2118, Rayburn House Office Building, Hon. James R. 
Langevin [chairman of the subcommittee] presiding.
    Present: Representatives Langevin, Christensen, Etheridge, 
Thompson, McCaul, Lungren and Blackburn.
    Mr. Langevin. The subcommittee will come to order.
    The subcommittee meeting today is to receive testimony on 
understanding the budget and strategic agenda of the Science 
and Technology Directorate.
    Good afternoon and welcome to the first hearing of the 
Subcommittee on Emerging Threats, Cybersecurity, and Science 
and Technology in the 110th Congress.
    I would like to begin by telling Ranking Member McCaul that 
I look forward to working with him in this Congress on the 
issues that I think we all agree are absolutely critical to 
improving national security.
    I also welcome our two witnesses to the hearing today: 
Under Secretary for Science and Technology Jay Cohen, and S&T 
Chief Financial Officer Richard Williams. I would like to thank 
both of you for your service to our country and for your time 
today.
    This hearing is entitled Understanding the Budget and 
Strategic Agenda of the Science and Technology Directorate 
because, for many years, neither the Congress nor the public 
nor the employees working within the S&T itself could 
understand what was going on in the S&T Directorate. Put 
simply, the absence of a clear mission within the Directorate 
and a lack of oversight by the Congress contributed to serious 
deficiencies.
    Anecdotes shared by former S&T employees in 2006 offered a 
disturbing image of the Directorate. According to one former 
employee with whom my staff spoke in August last year, ``what 
has occurred up to now at S&T is that, following an initial 
wonderful period when motivations and morale were super high, 
after a year or so turf battles developed, personal agendas 
dominated and many good people began to leave. Morale is now 
rock-bottom, and it appears that many have lost sight of the 
mission: to defend the country, against the unspeakable.''
    Admiral Cohen, I understand that all this occurred before 
your confirmation, and I am well aware of your work in the 
Office of Naval Research and think very highly of your 
capabilities. I know you have testified many times in this very 
room where you have appeared before me and my work on the Armed 
Services Committee, and it is great to have you here again. You 
come to your new post with a great deal of credibility, and it 
is my hope that you will do for the S&T Directorate what you 
did for the Office of Naval Research.
    But while I have a great deal of confidence in your ability 
to turn things around, as the chairman of this subcommittee I 
will be diligent in ensuring that the widespread problems that 
existed prior to your tenure are corrected.
    I recognize that you have only been on the job for 6 months 
now, but it does trouble me that we still don't have the 
strategic plan for the S&T Directorate, even though that was 
required by the Homeland Security Act in 2002.
    Admiral Cohen, I understand that you have been working on 
completing this report, and we look forward to hearing more on 
this report and receiving it.
    I do suggest to you that a strategic plan that does not 
include efforts to improve morale, minimize turnover, 
strengthen workforce recruitment and secure institutional 
memory is not a good plan. I suggest to you that a strategic 
plan that does not include a formal, Department-wide 
coordination plan on R&D, policy and procurement not be a good 
plan; and I suggest to you that a strategic plan that does not 
include the method by which RDT&E is prioritized and funded by 
S&T is not a good plan.
    It has also come to my attention that the Department has 
weak performance measures for the S&T divisions. I have taken 
the time to read the Performance and Accountability Report 
sections devoted to the S&T Directorate in 2005 and 2006; and I 
believe that the goals and measurements used to evaluate some 
of the programs are, by and large, weak and, in some cases, 
meaningless. I hope that you can improve on some of these 
measurements during your tenure.
    Finally, there is the issue of the budget.
    Admiral Cohen, I understand that your new R&D budget 
reflects the transfer of operations portions out of the S&T 
Directorate, but these transfers don't change the fact that the 
2008 budget is almost $100 million less than last year.
    During our hearing last week, Chairman Thompson warned 
Secretary Chertoff about homeland security on the cheap. These 
are critically important areas of research and development, and 
I am concerned that the President isn't focusing his priorities 
on the areas that are truly important to securing our Nation.
    For instance, when I look at your cuts in cybersecurity and 
the infrastructure and geophysical division, for instance, I am 
concerned that this is homeland security on the cheap. Now, we 
can't be satisfied with putting pennies into securing our 
Nation.
    I am sure that we will dive into these issues a little bit 
more today, but I want to conclude by thanking both of you for 
appearing today, and we look forward to hearing your testimony.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, Mr. McCaul, for an 
opening statement.
    Mr. McCaul. Thank you, Mr. Chairman.
    It was an honor to serve with you last Congress on this 
important committee, and I look forward to working with you as 
the ranking member on this subcommittee, and I know that we 
will do great work together in a bipartisan spirit.
    I know that you bring a lot of experience on nuclear and 
biological threats that enables us to more fully explore these 
and other means of attack, but we must also devote more 
attention to potential attacks, targets of attack, ensure our 
Nation has the technical capability to thwart terrorists' 
efforts to exploit vulnerabilities in our transportation 
systems, information and telecommunication networks, fixed 
infrastructure and borders.
    Under Secretary Cohen and Mr. Williams, I want to welcome 
you here today and thank you for your testimony; and I applaud 
you, also, on your choice of colors for your tie on Valentine's 
Day, which matches with the chairman. I apparently didn't get 
the memo on that today.
    But I look forward to hearing your testimony and vision for 
building a robust homeland security S&T capability and turning 
around a Directorate that has been plagued by personnel 
turnover and mismanagement, budget fluctuations and priority 
shifts.
    I would like to walk away with confidence that the Nation 
is making the most of its science and technology resources to 
bolster our homeland security strategy.
    We sit here today more than 5 years removed from September 
the 11th and 4 years since the Congress authorized the creation 
of the Department of Homeland Security. The attacks of 9/11 and 
the release of anthrax spores just weeks after revealed 
enormous vulnerabilities in this country, particularly in our 
surveillance, detection and public health response 
capabilities.
    During the 109th Congress, the committee focused much on 
the Department's efforts to implement HSPD 10, the Biodefense 
for the 21st Century.
    It is an important--part of the strategy is the detection 
of biological agent for which S&T Directorate plays a lead 
role. The biological program within the chem/bio division in 
fact consumes a large portion of the Directorate's budget. It 
is $60 million in 2008, and this is after the transfer of the 
operational aspects to the Office of Health Affairs. This is 
more funding than most of the other divisions and involves only 
a single program.
    Currently, the biodetection technology is very time--and 
labor-intensive and not cost-effective, in my view; and I 
encourage you to continue pursuit of next-generation 
technologies which will be automated in near real-time. 
Because, in this game, timing is crucial. It is the difference 
between the detecting to treat and detecting to warn. It is a 
difference that will result in the saving of countless lives.
    Another Presidential Directive released just last week is 
HSPD 18, the Medical Countermeasures Against Weapons of Mass 
Destruction. As the Directorate looks ahead at ways to 
implement this Directive, it should leverage its experience in 
conducting material threat assessments and material threat 
determinations under Project BioShield.
    The Directorate's threat and risk assessment process should 
not be limited only to guiding acquisition of medical 
countermeasures as required, but clearly it can be also applied 
to prioritizing mid--and long-term research and development of 
such countermeasures by identifying risks ranging from 
immediate ones to those potentially emerging.
    Admiral Cohen, to borrow two out of your four Bs, 
technology is important not only in detecting bugs but also in 
detecting bad guys across our borders. With the long border 
such as that of my State of Texas to protect, the Custom and 
Border Patrol relies on the S&T Directorate to provide the 
technology they need to do their job effectively.
    Technology such as acoustic seismic magnetic and thermal 
infrared sensors, visual and infrared cameras, electromagnetic 
radiometry can detect people, vehicles and tunnels. It is not 
enough just to improve these technologies individually. We must 
also focus on research and development creating an effective 
border security system where sensors and surveillance 
technologies are interconnected in a smart network.
    Interoperability of information and communication 
technologies is a nationwide concern. The border communications 
present unique challenges that may require tailored technical 
solutions. We need to do a better job at securing our borders 
from illegal immigration, terrorism and drugs. Technology is 
part of the solution; and this Directorate, the S&T, is 
positioned to play a key role in that.
    In an effort to secure our borders beyond our shores, the 
Directorate should also place greater focus on developing and 
integrating biometric-based information and tamper-proof 
credentialing technologies in order to identify and 
authenticate travelers through better security scrutiny and 
reduced false alarms.
    The payoff of these efforts will be realized in supporting 
several homeland security missions such as TWIK for port 
workers, real ID for U.S. drivers and future passports and 
tamper-proof IDs. Biometric technologies will also enable the 
full benefits of the use of U.S. Visa Program by implementing 
the exit element, ensuring more complete tracking of our 
international visitors.
    I mentioned earlier the need for an interconnected network 
of systems. However, it is this interconnective nature of the 
Internet and information infrastructure that also makes us 
vulnerable to a cyberattack. Information technology is fast 
advancing. It is a fast-advancing technological field, and R&D 
activities will be needed to improve cybersecurity products and 
services to ensure we keep pace with changes in risk and 
advances in this technology.
    I have just touched on a few of these technologies that 
should be on your agenda today and should consume major 
portions of your budget. But I want to know about tomorrow. 
When certain counterterrorism technologies have become so 
sophisticated that terrorists change tactics in order to evade 
them and while the Directorate needs to have short--and long-
term strategic direction, it must be remain agile enough to 
keep ahead of the terrorists and readily adapt to an ever-
changing threat landscape.
    They say agility comes with use, so I applaud the 
Directorate's continued investment in the Scholars and Fellows 
Program which trains the next generation of public-service-
oriented scientists and engineers. This effort is needed to 
build a strong science and technology community that will 
provide a critical advantage in the development and 
implementation of counterterrorist measures and other DHS 
objectives.
    Other vital university programs is the Homeland Security 
Centers of Excellence, which harnesses the Nation's scientific 
knowledge and technological expertise in areas critical to 
homeland security.
    With the largest center just down the road from me at Texas 
A&M, I can attest that the National Center for Foreign Animal 
and Zoonotic Disease Defense draws upon the Nation's leading 
experts and researchers to protect against the introduction of 
such high-consequences diseases.
    I am also concerned about the 20 percent reduction, though, 
in these university programs in the budget for 2008. With four 
new centers expected to come on line, I hope that existing 
centers' funding won't be compromised. The Directorate must 
continue to also not only invest in these centers but select 
through them a competitive merit-based process that awards the 
best in science.
    We have enormous scientific and technological expertise in 
this country that exists in our universities, the national labs 
and in the private sector. As you bring a customer focus to 
S&T, I hope the Directorate finds its niche as enablers of 
technology, and that is the link between the experts in the 
labs and the universities who are on the cutting edge of 
science and the customers--or the end users--who rely upon that 
science to translate it into useable and effective technology.
    In conclusion, let me say that I know we visited last week 
and I must say I was very impressed, and I do think the 
Department is very lucky to have a man of your caliber on board 
in this critical position. You weren't hired for an easy job, 
and my job is to make sure your job doesn't get any easier.
    But what I mean is, if you and I do our jobs right and 
raise the standard of excellence and reinvigorate this 
Directorate to think in new terms, generate innovative ideas 
and breakthrough technologies, then you will face tough 
decisions but the struggle will no longer be about correcting 
past mistakes and regaining confidence in the Congress but 
about deciding which technologies to pursue from an abundance 
of promising revolutionary ideas to better protect this nation.
    Thank you.
    Mr. Langevin. Thank you, Ranking Member.
    The Chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
the purpose of an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    First of all, I would like to congratulate you on your 
first hearing as chairman of the subcommittee. The jurisdiction 
of this subcommittee is important, and I have every confidence 
that you will drive legislation and perform the oversight that 
these critical issues deserve for this subcommittee.
    As you pointed out, also, Mr. Chairman, the Department's 
Science and Technology Directorate has struggled and 
underperformed pretty much since its inception. The Science and 
Technology Directorate has been criticized for being a hobby 
shop, where research and development are not driven by 
operational requirements but by the interests of the 
researchers.
    The Government Accountability Office has identified 
significant financial management deficiencies within S&T.
    Last year, the House Appropriations Committee referred to 
the Science and Technology Directorate as a rudderless ship 
where the committee decided to cut funding to the Directorate.
    Well, I suppose when you have a rudderless ship it makes 
sense to bring in an Admiral to fix the problem. I would like 
to welcome you here, Admiral; and I hope you like my pun, also.
    But, also, Mr. Williams, I want to recognize you and 
welcome you. We could stand significant help, as you know, on 
the financial side.
    I want you to give us your honest opinion today in your 
testimony. We have a lot of situations to address, but I think 
the issue that we have speaks to credibility of the operation. 
It speaks to real-time ideas being brought forward in a 
reasonable period of time.
    Companies come to us all the time saying I wish DHS was 
like DOD, kind of pushing new ideas out, invest in them in a 
real-time situation. We can see some return on investment, 
rather than just never hearing from them.
    So, Admiral, you have a real job ahead of you. I think you 
will find this committee both at the subcommittee and full 
committee level willing to work with you, want to move forward. 
I share our ranking member's concern about Centers of 
Excellence. I have a question a little later on it. But, at 
this point, they have done a wonderful job. We just need to 
expand the participation mode in those Centers of Excellence to 
include all of our institutions, not just a precious few.
    So, Mr. Chairman, I look forward to the comments from the 
witnesses and my opportunity to ask them some questions, and I 
yield back.
    Mr. Langevin. Mr. Chairman, thank you very much for your 
opening statement and your comments. I appreciate your 
leadership and look forward to working with you as well.
    Other Members of the subcommittee are reminded of the 
committee rules. Opening statements may be submitted for the 
record.
    I welcome the first panel of witnesses here today.
    First witness, the Honorable Jay Cohen, the Under Secretary 
of Science and Technology at the Department of Homeland 
Security. Jay M. Cohen is a Native of New York. He was 
commissioned in 1968 as an ensign upon graduation from the 
United States Naval Academy.
    He holds a joint ocean/engineering degree from the 
Massachusetts Institute of Technology and Woods Hole 
Oceanographic Institute and masters of science in marine 
engineering and naval architecture from MIT.
    Admiral Cohen has a long and distinguished career with the 
Navy, commanding several ships and submarines during his 
tenure. He was promoted to the rank of Rear Admiral in October 
of 1997. Prior to his arrival at the S&T, he served as Chief of 
Naval Research, where he coordinated investments with other 
U.S. and international S&T providers to rapidly meet warfighter 
combat needs.
    Under Secretary Cohen was sworn in to his current position 
at the Department of Homeland Security on August 10, 2006.
    Our second witness, Mr. Richard Williams, is the Director 
for Strategy, Policy and Budget and the Chief Financial Officer 
of the Science and Technology Directorate.
    Prior to coming to S&T, Mr. Williams established and served 
as the original Director of the Department of Homeland Security 
Office of Program Analysis and Evaluation from May, 2003, to 
August, 2006.
    Like Admiral Cohen, he is a Navy veteran. From 1988 to 
2003, he served on the staff of the Director, Naval Propulsion 
Program, work run jointly by the Department of the Navy and the 
Department of Energy. During his tenure there, he held various 
positions, including Director of Operating Nuclear Fleet Budget 
Division, Director of the Finance Division and Director of the 
Fiscal Division.
    From 1983 to 1993, he served on board two nuclear-powered 
submarines, the USS Kamehameha and the USS Pasadena.
    I understand that you have both collaborated on your 
testimony. So, without objection, the full witnesses' statement 
will be inserted into the record; and I now ask the witnesses 
to summarize their statement in 5 minutes.

   STATEMENT OF HON. JAY COHEN, UNDER SECRETARY, SCIENCE AND 
        TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Langevin. Admiral Cohen, the floor is now yours.
    Mr. Cohen. Good afternoon, Chairman Langevin and Chairman 
Thompson, Congressman McCaul, Congresswoman Christensen and 
Congressman Etheridge.
    First, I would like to congratulate you all on your new 
assignment; and we look forward very much to working with you. 
It is a personal honor for me to appear before you today and to 
update you on the progress that I believe we have made to date 
in the Department of Homeland Security Science and Technology 
Directorate and also to discuss the President's budget request 
for fiscal year 2008 and how I believe it will position us to 
develop and transition technology to better protect the Nation 
from catastrophic efforts.
    I thank you for entering my testimony into the record; and, 
for the that reason, I have very short remarks.
    I would like to especially thank Chairman Thompson.
    Just before coming here, my people shared with me a press 
release where you acknowledged the work and the dedication of 
the men and women of the Department of Homeland Security and 
your commitment to them to give them the tools and the 
oversight to make their job more effective. We all serve not 
just for our Department but also for the Nation and thank you 
for that consideration on behalf of the those men and women.
    Today, I am joined, as the chairman has indicated, by my 
Chief Financial Officer, Dick Williams. We both reported to the 
Department of Homeland Security on 10 August. That was a 
momentous day. That was the day of the liquid explosives plot 
that was discovered in the United Kingdom, and it hasn't slowed 
down since then.
    When we talk about the value of science and technology, we, 
as you all know from testimony that I gave in September on the 
11th of August, established the rapid response team to address 
this very important threat. The liquid explosives engaged not 
only our Department of Energy labs, which you in the enabling 
legislation very wisely have shared with the Department of 
Homeland Security, but also our Center of Excellence in the 
universities as well as my small laboratories, including the 
Transportation Security Laboratory in Atlantic City, New 
Jersey.
    And based on the efforts, the testing, the overture that we 
made to industry, testing real time both in Socorro, New 
Mexico, against real-world formulae and at Tyndall Air Force 
Base with the Transportation Security Authority using their 
screening devices, Kip Hawley, the Director of the 
Transportation Security Agency, was able in about 2 months to 
issue what is now known as a 311 rule which was able to get 
small amounts, approximately three ounces of liquids, back on 
board our aircraft carrier, board luggage and to help relieve 
the congestion that had developed in the checked baggage arena.
    So that is just one small example of how S&T can make a 
difference with risk-benefit analysis.
    The S&T Directorate is committed to serving our customers. 
Who are our customers? They are the Department of Homeland 
Security components, the 22 agencies and operating components 
that you so wisely put together in the enabling legislation.
    They are my customers. But I am also sensitive to the 
customer of my customers, and there I have two sets. In 
legislation, I have the first responders, our true heroes, the 
police, the firemen and EMT. But I also have, in the Coast 
Guard, the guardsmen, and, in TSA, the screeners, and, in 
Customs and Border Protection, the Border Patrol agents. They 
are the customer of my customers, and we interact with them, 
and we provide for them.
    I appreciate very much the leadership and the support of 
the Congress, the bipartisan support. The decision that you 
took in an election year to restore the fiscal year 2007 
funding to the President's requested level late in the 
congressional session is enormously helpful to my efforts to 
realign, refocus the Directorate, to develop a robust S&T 
capability for the Nation and with the continued bipartisan 
support that I have received since the election from both the 
Members and the staff; and I am very appreciative of that. I 
know that together we will enjoy further success.
    I would like to focus in my first 6 months on the job in 
laying the foundation to realign the Directorate so that it may 
excel in what I think are four key areas. I shared these with 
you back in September, and I have remained focused on them ever 
since, and that was the four ``gets``: getting the 
organization, getting the books, getting the people all right. 
And when you do that, you are able to get the content right so 
that we can make the Nation safer.
    As Congressman McCaul indicated, he talked about two of the 
Bs I have indicated, that those threats are bombs, borders, 
bugs and business, where business is the underlying cyber that 
enables everything we do.
    I think you will see that we have made good progress in 
this in 6 months. But we have a long way to go. We are striving 
to help the S&T Directorate become customer-focused and output-
oriented. This is a cultural change, as you have already 
indicated. The S&T management organization should be as the 
Congress intended and the Nation deserves.
    To share just a few of the highlights of the realignment--
and I briefed you on this previously--we have realigned in the 
six divisions and three portfolio investment areas. I am as 
concerned as you are about morale. This is a significant 
challenge. It comes down to leadership. We welcomed 20 new 
highly qualified experts and professionals on board. We are 
manned up to about 66 percent of the 100 percent staffing that 
I desire to have in place, and we will be there by the end of 
2007. We have welcomed back four government-service employees 
who left earlier in the year and have asked to come back on 
board the S&T team; and, of course, we have welcomed them on 
board.
    I have been personally proactive in my outreach, as 
Chairman Thompson has indicated, welcoming businesses, large 
and small universities and vendors through SBI or Ma and Pa. I 
don't know where good ideas come from, but they are welcome at 
our door, and I have an open door policy.
    I believe you will see we have made significant progress in 
getting the books right; and, in terms of our obligations, we 
have committed as of today 47 percent of our fiscal year 2007 
budget. That compares with 6 percent the same time last year, 
which explains some of the language that was developing and was 
put into legislation last year by the Congress.
    We have enabled the customers through an integrated product 
team--my time is short. I know you will address this in many of 
your questions. I look forward to those, but I will tell you, 
if you are wondering how we are doing and the progress we have 
made, I encourage you--and I know you will in your oversight 
role--to ask my customers in DHS, are we meeting their needs? 
To ask the universities and laboratories, are they fully 
engaged and enabled? And to ask the entrepreneurs in this great 
country and around the world, are we providing the resources 
that they need in order to be agile and make a difference?
    So, again, I am honored to be before you today on 
Valentine's Day. I welcome your oversight. I look forward to 
your questions and your concerns and working throughout the 
year with you and your staff to make the Nation safer. Again, 
thank you so much so much.
    Mr. Langevin. Admiral, thank you for your opening 
statement; and I want to thank, again, all the witnesses for 
their testimony today.
    [The statement of Mr. Cohen and Mr. Williams follows:]

  Prepared Joint Statement of the Honorable Jay M. Cohen and Richard 
                                Williams

Introduction
    Good Morning Chairman Langevin, Ranking Member McCaul, and 
distinguished Members of the Committee. It is an honor to appear before 
you today to update you on the progress of the Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T Directorate) 
and discuss how the President's Budget Request for Fiscal Year 2008 
will position us to develop and transition technology to protect the 
Nation from catastrophic events. Also invited to testify and joining me 
today is Mr. Richard Williams, Chief Financial Officer and Director of 
the S&T Strategy, Programming and Budget Division. Mr. Williams will 
testify about improvements to S&T's financial management processes.
    The S&T Directorate is committed to serving our customers, the 
components that comprise the Department of Homeland Security--and their 
customers--the hardworking men and women on the front lines of homeland 
security, especially the first responders, who need ready access to 
technology and information to perform their jobs more efficiently and 
safely. I am honored and privileged to serve with the talented 
scientists, engineers and other professionals who support these 
dedicated Americans in our shared mission to secure our homeland and 
defend our freedoms.
    First and foremost, I am very appreciative of the leadership of the 
Congress in its support of the S&T Directorate, and of me personally, 
as I assumed the role of Under Secretary for Science and Technology 
last August. The informed counsel of Committee Members with homeland 
security oversight, and that of their staffs, has been invaluable to my 
efforts to position the S&T Directorate for accountability, tangible 
results and success, both for today and in the future.
    Also, thank you for your vote of confidence in the Directorate, 
evidenced by the decision to appropriate $848 million in FY 2007. This 
has been enormously helpful in my efforts to better align people with 
our mission to develop a robust science and technology capability to 
protect the Nation as Congress envisioned in the enabling legislation 
for the Department. We look forward to working with the 110th Congress 
in a bipartisan and non-partisan manner to use science to better secure 
the Nation.
    I am also grateful for the leadership of the President and Homeland 
Security Secretary Michael Chertoff and for the vision and guidance 
that the Secretary and Deputy Secretary Michael Jackson have 
contributed to the realignment process.

The First 180 Days_Aligned and Open for business
    My first six months on the job have been focused on laying the 
foundation in organization, people, and processes to enable the 
Directorate to skillfully apply the resources you have wisely provided 
in ways that best serve the American people and better secure our 
homeland. I am pleased to report that we are ``open for business,'' and 
your support of the President's FY 2008 Budget Request will allow us to 
build upon that momentum.
    As I've said on many occasions, the S&T Directorate must excel in 
four key areas if we are to accomplish these goals: We must get the 
organization, the people, the books, and the program content right. 
These four ``gets'' are the cornerstones of the realignment effort and 
we've made significant progress in each of these areas. In addition to 
the four gets, the four Bs--bombs, borders, bugs and business--provide 
the thematic approach to help keep us focused on the priority areas for 
the S&T Directorate.
    I have realigned the S&T Directorate to help it fulfill its 
potential of becoming the customer-focused, output-oriented, science 
and technology management organization that Congress intended it to be 
and the Nation deserves. I thank Congress for its support of the new 
organizational structure that, in turn, is supportive of a broad and 
balanced range of activities that are aimed at identifying, enabling 
and transitioning new capabilities to our customers to better protect 
the nation. We have organized our program management into six technical 
divisions that are led by veteran S&T Directorate staff members and 
linked to three research investment portfolio directors in a ``matrix 
management''structure. The technical divisions are focused on the 
enduring homeland security disciplines of Explosives; Chemical and 
Biological; Command, Control & Interoperability; Borders and Maritime 
Security; Human Factors; and Infrastructure Protection and Geophysical 
Sciences. The portfolio directors--Director of Research, Director of 
Transition, and Director of Innovation/Homeland Security Advanced 
Research Projects Agency (HSARPA)--provide cross-cutting coordination 
of their respective aspects of the investment strategy within the 
technical divisions. 

[GRAPHIC] [TIFF OMITTED] T5265.003

    I am pleased to report that today the S&T Directorate has a strong 
leadership team in place with all key positions filled. Since August, 
we have also welcomed 20 new highly qualified subject matter experts 
and professionals to the S&T Directorate, including three former DHS 
S&T employees who had previously left the Directorate and who have 
returned. Overall, we are 66 percent staffed and plan to have 100 
percent of staff in place by the end of 2007.
    I have made significant strides in ``getting the books right'' by 
holding the S&T Directorate to a high standard of fiscal 
responsibility. Toward this end, I have established an Office of 
Strategy, Policy & Budget Division led by the S&T Chief Financial 
Officer that has put in place the systems and protocols that will 
enable the S&T Directorate to be fully responsive and transparent in 
the budget development process and in the sound fiscal management of 
S&T appropriations. This new office is enhancing the efficiency of S&T 
operations by integrating related functions of policy, planning, 
programming, budgeting and execution. Centralizing financial oversight 
has enabled the S&T Directorate to implement corrective actions to 
address financial management deficiencies and accelerate the 
distribution of funds to DHS Laboratories, Department of Energy 
National Laboratories, private industry and academia. As a result, the 
S&T Directorate has committed 47 percent of its FY 2007 budget compared 
to 6 percent at the same time last year, significantly accelerating the 
distribution of funds to DHS Labs, DOE Labs, industry and academia, 
which will result in accelerated technology development and delivery to 
keep our Nation safer.
    In other developments, I have added a director of Special Programs 
to work in select, mission-critical areas. And a new director of Test & 
Evaluation and Standards is building upon the S&T Directorate's 
previous work in homeland security standards and adding test and 
evaluation capabilities to advance this effort and draw greater 
industry participation in developing new technologies for homeland 
security applications throughout DHS. We have also established a 
Corporate Communications Office to inform and engage our customers and 
their customers in the S&T Directorate's broad investment portfolios.
    I also know that we must look beyond our Department, indeed beyond 
our nation's borders, for solutions in combating domestic terrorism. 
Therefore, consistent with DHS enabling legislation, I have established 
Interagency and International Program Offices responsible for, 
respectively, coordinating with other Executive Branch agencies to 
reduce duplication and identify unmet needs, and coordinating our 
international outreach efforts to help us tap into science and 
technology communities across the globe for solutions to counter 
domestic terrorism. Embedded S&T Directorate liaisons in Europe, the 
Americas and Pacific/Asia are casting a wide global net to identify the 
most viable homeland security solutions and their providers.
    Last December, we saw the ``physical manifestation'' of our 
restructuring plan spring to life with the relocation of 340 of our 
staff members within the Directorate. Staff are now physically co-
located within their new organizational alignments. At the same time, I 
issued the first S&T Organization and Requirements Manual (STORM) that 
defines functions, duties and responsibilities for the administration 
and management of the Directorate. The STORM tells our customers who we 
are and how we function so they may better understand the capabilities 
we can bring to bear in support of their protective missions.
    Throughout this process, it was very important to me personally 
that S&T staff be kept informed of our plans for the realignment and 
that they have a forum for asking questions and expressing their views 
and concerns. Since last August, I have held four ``All Hands'' 
meetings at regular intervals to brief all S&T staff, including 
teleconference links with staff in other locations such as the 
Transportation Security Laboratory in Atlantic City, Plum Island Animal 
Disease Center, and the Environmental Measurements Laboratory in New 
York City. These meetings also allow me to recognize the achievements 
of staff members, to answer questions and solicit input, and, most 
importantly, express my gratitude for their excellent work and for all 
the cooperation, support and patience they have exhibited during this 
transitional period.
    During the first six months of my tenure as Under Secretary for 
Science and Technology, I have focused on building the organization, 
team and processes that are necessary for any science and technology 
management organization to succeed. While our effort to completely 
institutionalize these changes continue, we now have a foundation in 
place that allows us to focus on delivering products to our customers 
as we execute our FY 2007 appropriation. The S&T Directorate is 
striving to be effective, cost-efficient, responsive, agile and 
flexible, and with your support of the President's FY 2008 Budget 
Request we will build on our current momentum.

CUSTOMER/OUTPUT FOCUSED
    The S&T Directorate functions as the science and technology manager 
within the Department. We invest in science and technology that 
supports DHS components in their efforts to protect our homeland 
against catastrophic events--technology that makes the Nation safer. In 
the last six months, we have established meaningful working 
relationships with our DHS operational component customers. As they 
appear before you this year, I encourage you to ask them about the ways 
that S&T is addressing their operational needs. Thanks to the support 
of the Congress and the leadership of the Department, we are gaining 
significant momentum, and I humbly ask for your continued trust and 
support so that we can build on those efforts.
    The S&T Directorate develops and manages an integrated program of 
science and technology, from basic research through technology 
transition to customers that are the operating components of DHS, 
State, local and tribal governments, first responders and private 
sector entities. The managers of this program are predominantly active 
scientists and engineers in the many disciplines relevant to Homeland 
Security. They are guided by a multi-tiered investment strategy and 
review process based on higher guidance, the stated needs of our 
customers, and technology opportunities.
    The President's FY 2008 Budget Request includes $86 million for the 
basic research portfolio which addresses the long-term R&D needs for 
the Department in sciences of enduring relevance to Homeland Security. 
The transition portfolio, designed to provide mission-capability 
relevant technology in support of the Department's acquisition 
programs, is driven by customer needs through a DHS customer-led IPT 
process. The President has requested $343 million in FY 2008 for this 
effort. The Director of HSARPA administers the $73 million innovation 
portfolio (includes the Small Business Innovation Research program) to 
promote revolutionary changes in technologies with a focus on 
prototyping and deploying technologies critical to homeland security. 
This portfolio, balanced around risk, cost, impact and time to 
delivery, produces capabilities of high technical quality responsive to 
homeland security requirements.

              DHS Science & Technology Investment Portfolio
           Balance of Risk, Cost, Impact, and Time to Delivery
Product Transition (0-3 yrs)
                                            Innovative Capabilities (2-5
<bullet> Focused on delivering near-term     yrs)
products/enhancements to acquisition
<bullet> Customer IPT controlled
<bullet> Cost, schedule, capability
 metrics

------------------------------------------------------------------------
Basic Research (>8 yrs)
                                            Other (0-8+ years)
<bullet> Enables future paradigm changes
<bullet> University fundamental research
<bullet> Gov't lab discovery and invention

------------------------------------------------------------------------

             DHS Science & Technology Investment Portfolio

Basic Research (>8 years)
        The S&T Directorate's basic research portfolio addresses long-
        term research and development needs in support of DHS mission 
        areas that will provide the Nation with an enduring capability 
        in homeland security. This type of focused, protracted research 
        investment has the potential to lead to paradigm shifts in the 
        nation's homeland security capabilities.
        The S&T Directorate's basic research program enables 
        fundamental research at our universities, government 
        laboratories and in the private sector. Approximately $95 
        million is allocated for basic research in FY 2007 and $86 
        million, 13 percent, is allocated in FY 2008. Eventually, I 
        would like up to 20 percent of the S&T Directorate budget 
        allocated for basic research. It is critical that basic 
        research be funded at consistent levels from year to year to 
        ensure a continuity of effort from the research community in 
        critical areas that will seed homeland security science and 
        technology for the next generation of Americans and prevent 
        technological surprise.

Product Transition (0 to 3 years)
    The centerpiece of the S&T Directorate's product transition 
portfolio are Capstone Integrated Product Teams (IPT) that function in 
mission-critical areas to identify our customers' needs and enable and 
transition near-term capabilities for addressing them. These Capstone 
IPTs engage DHS customers, acquisition partners, S&T technical division 
heads, and end users as appropriate in our product research, 
development, transition and acquisition activities.
    The IPT process enables our customers to identify and prioritize 
their operational capability gaps and requirements and make informed 
decisions about technology investments. The S&T Directorate, in turn, 
gathers the information it needs to respond with applicable technology 
solutions for closing these capability gaps. The science and technology 
solutions that are the outcome of this process, referred to as Enabling 
Homeland Capabilities, draw upon technologies that can be developed, 
matured, and delivered to our customer acquisition programs within 
three years.
    Capstone IPTs have been established in 10 major areas: Information 
Sharing/Management; Cyber Security; People Screening; Border Security; 
Chemical/Biological Defense; Maritime Security; Explosive Prevention; 
Cargo Security; Infrastructure Protection; and Incident Management 
(includes first responder interoperability). 

[GRAPHIC] [TIFF OMITTED] T5265.004

    The S&T Directorate's product transition/IPT process ensures that 
appropriate technologies are engineered and integrated into the DHS 
acquisition system for our customers. Approximately $343 million is 
allocated for product transition for FY 2008, a little over 50 percent 
of my budget.
    The IPT process has created an excellent forum for the S&T 
Directorate to gain a better understanding of the most important issues 
of our customer agencies. Another tangible benefit of this Capstone IPT 
process has been improved coordination in addressing common functional 
challenges across the Department. This is due in large measure to the 
enthusiastic participation of DHS agency heads such as TSA 
Administrator Kip Hawley, Secret Service Director Mark Sullivan, and 
Border Patrol Chief David Aguilar and many other DHS leaders who have 
all personally chaired the IPTs relevant to their interests.
    In FY 2008, the S&T Directorate plans to transition or transfer 
four programs that pre-date the IPT process. These programs have 
reached technical maturity and will be transferred to other DHS 
agencies who will be responsible for their continued operation. The 
budget request reflects the transfer to the Office of Health Affairs of 
the operations portions of BioWatch 1 & 2, the Biological Warning and 
Incident Characterization (BWIC) system, and the Rapidly Deployable 
Chemical Detection System, totaling $84.1 million. Moving the 
operations portions of BioWatch out of S&T allows us to focus on 
completing the development of BioWatch 3. BioWatch is a bio-aerosol 
monitoring system designed to provide cities the earliest possible 
detection of a biological attack. BWIC interprets warning signals from 
BioWatch and public health surveillance data using incident 
characterization tools (e.g., plume and epidemiological models) to 
quickly determine the potential impacts a release may have. Together, 
these two systems provide emergency personnel with the information they 
need to respond effectively and initiate life-saving medical 
countermeasures. In addition, the FY 2008 budget request reflects the 
transfer of the SAFECOM program to the National Protection and Programs 
Directorate, totaling $5.0 million.
    It is important that the S&T Directorate also engage the emergency 
responder community and address operational issues to help them do 
their jobs more quickly, effectively and safely. S&T's Technology 
Clearinghouse and TechSolutions initiatives provide direct support to 
emergency responders' technology needs. The Technology Clearinghouse, 
created in accordance with a provision of the Homeland Security Act of 
2002, is designed to be a ``one-stop shop'' for access to technology 
information for Federal, State, and local public safety and first 
responder communities. TechSolutions provides a Web-based mechanism for 
responders to register their input regarding capability gaps that need 
to be addressed to help them in their jobs. S&T responds by identifying 
existing technology that may meet the need, or if nothing is available, 
proceeding with the rapid prototyping of an appropriate solution to be 
fielded in less than 18 months. S&T also houses the Office for 
Interoperability and Communications, which aims to increase levels of 
emergency responder interoperability by developing tools and 
methodologies, as well as advancing standards that emergency response 
agencies can put into effect.

Innovative Capabilities (2 to 5 years)
    S&T's Innovation/HSARPA portfolio supports a key goal of mine for 
the Directorate in its efforts to put advanced capabilities into the 
hands of our customers as soon as possible. It has made important 
inroads in research areas aligned with our DHS customers. Toward this 
end, S&T has introduced two important new initiatives. One of these, 
Homeland Innovative Prototypical Solutions (HIPS) are designed to 
deliver prototype-level demonstrations of game-changing technologies 
within two to five years.
    The second initiative, High Impact Technology Solutions (HITS), is 
designed to provide proof-of-concept solutions within one to three 
years that could result in high-payoff technology breakthroughs. While 
these projects are very high-risk, they offer the potential for ``leap-
ahead'' gains in capability should they succeed. While projects are 
separately budgeted in ``Innovation/HSARPA'' (based on moderate to high 
risk with a high payoff, if successful), ALL are executed within the 
six technical divisions.
    The S&T Directorate also continues to manage an active Small 
Business Innovative Research (SBIR) program on behalf of DHS that 
currently issues two solicitations each year and generates multiple 
awards for the small business community. The first solicitation for FY 
2007 opens in mid-February and the second solicitation is planned for 
release in May. The solicitations will address topics in areas that are 
aligned with the six technical divisions.
    The Innovation/HSARPA portfolio is receiving $60 million in FY 2008 
funding for the innovative/leap-ahead HIPS and HITS projects. Because 
of the short timeline for HIPS and HITS, we anticipate that these 
projects will respond to the urgent needs of the DHS components for 
solutions to fill capability gaps.

Enabling U.S. Leadership in Science & Technology
University Based Centers of Excellence
    The S&T Directorate is developing a robust, results-oriented 
network of Homeland Security Centers of Excellence (COEs) to leverage 
the independent thinking and ground-breaking capabilities of the 
Nation's colleges and universities. The COEs are conducting 
multidisciplinary research and education, each focused on an area 
critical to homeland security. The Office of University Programs is 
providing the communications and infrastructure to produce, share, and 
transition the Centers' research results, data, and technology to 
customers and end users.
    Currently, seven pre-existing COEs connect experts and researchers 
at more than 80 colleges and universities, including several Minority 
Serving Institutions (MSI). More than 20 partners representing 
industry, laboratories, think tanks, nonprofit organizations, and other 
agencies also participate. University Programs is coordinating COE 
efforts with other S&T Directorate-sponsored, university-based 
initiatives. Under the new S&T organizational construct, existing COEs 
are being strategically aligned with at least one S&T division, or to 
Directorate-wide activities such as Operations Analysis and the 
Homeland Security Institute, in a structure that will best support the 
Divisions' fundamental research and development activities and other 
requirements.
    We are proceeding with plans to establish four additional COEs over 
the next two fiscal years to help round-out the Directorate's need for 
university-based fundamental research. The new COEs will combine the 
research missions of some existing COEs and add new research areas 
under the division-aligned construct to meet DHS needs. S&T has 
released Broad Agency Announcements (BAAs) regarding plans to establish 
new COEs in the areas of explosives detection, mitigation, and 
response; border security and immigration; maritime, island, and 
extreme/remote environment security; and natural disasters, coastal 
infrastructure and emergency management. The competitive selection 
process is designed to ensure that institutions of high quality and 
academic merit participate from as many areas of the United States as 
practicable.

DHS Scholars and Fellows Program
    DHS education programs are helping to attract and nurture future 
scientific leaders for the homeland security workforce and to 
strengthen the expertise of our existing labor pool. University 
Programs is engaging high-performing students through the DHS Scholars 
and Fellows program. Increasingly, S&T's scholarships and fellowships 
will become aligned to the Centers of Excellence and to the DHS 
mission. During this period of transition, we will honor our 
commitments to all currently participating Scholars and Fellows.
    The FY 2008 budget requests $38.7 million for S&T's University 
Programs, which includes the Homeland Security Centers of Excellence 
and the Scholars and Fellows Program.

Office of National Laboratories
    In carrying out its mission, the S&T Directorate works to develop, 
sustain, and renew a coordinated network of DOE National Laboratories, 
Federal laboratories and University Centers, the infrastructure needed 
by multi-disciplinary teams of scientists, engineers and academics to 
discover, develop and transition homeland security capabilities to 
operational end-users.
        The FY 2008 budget request includes $88.8 million for the 
        Office for National Laboratories (ONL), through which the S&T 
        Directorate's laboratory facilities programs are executed. ONL 
        provides the Nation with a coordinated, enduring core of 
        productive science, technology and engineering laboratories, 
        organizations and institutions, which can supply knowledge and 
        technology required to secure our homeland. In addition to 
        oversight of laboratory operations in direct support of the 
        Department and its missions, ONL also has the specific 
        responsibility for coordinating homeland security-related 
        activities and laboratory-directed research conducted within 
        the DOE National Laboratories.

Industry Participation in DHS Science & Technology
    Industry is a valued partner of DHS S&T and its continued 
participation in developing solutions for homeland security 
applications is vital to our effort to safeguard the nation. Consistent 
with S&T's new structure, our Innovation/HSARPA portfolio and six 
technical divisions will be releasing BAAs that seek industry 
participation to address specific challenges in their respective areas. 
For example, Innovation/HSARPA has already posted BAAs seeking 
expertise in tunnel detection technologies, container security (SAFECON 
program), and a mobile screening laboratory to support human screening 
R&D in the field.
    Innovation/HSARPA plans to release six additional BAAs shortly to 
address areas that include critical infrastructure protection, hostile 
intent detection and other key areas. No later than spring 2007, we 
intend to issue a BAA for longer-term efforts that cover our complete 
innovation topic area portfolio.
    No one knows where good ideas come from and for that reason I have 
been personally proactive in both seeking out and receiving technology 
briefs and opportunities. This is a culture I am working to instill 
throughout the DHS S&T Directorate.
    The Support Anti-terrorism by Fostering Effective Technologies 
(SAFETY) Act of 2002, administered in the S&T Directorate, is proving 
to be a valuable tool in expanding the creation, proliferation and use 
of cutting edge anti-terrorism technologies throughout the United 
States. Over the past year we have made significant improvements in 
implementing the Act, including a revised, streamlined Application Kit; 
new coverage for emerging technologies that are undergoing test and 
evaluation; increased use of pre-application teleconferences between 
SAFETY Act technology evaluators and applicants to review requirements 
and answer questions prior to submitting a full application; and 
procedures to expedite applications for technologies involved with 
pending government procurements. In 2006, 65 unique technologies and 
services were approved for coverage under the Act, with approximately 
40 currently under evaluation. I am mindful of the interest in this 
program in the Congress and across the Nation.
    As part of our outreach efforts to encourage greater industry 
participation, the Directorate is hosting the first Homeland Security 
Science & Technology Stakeholders Conference, May 21--24. The 
conference will inform government, industry and academia of the 
direction, emphasis, and scope of the research investments by the S&T 
Directorate, and provide information about business opportunities. The 
conference will present the Directorate's new organization, explain how 
to do business with the DHS S&T research enterprise, and provide 
visibility into new and emerging technologies through an Innovation 
Gateway Marketplace. I hope you will join us for this event at the 
Ronald Reagan Building and International Trade Center.

FY 2008 BUDGET OVERVIEW
    Science and Technology Directorate's budget request of $799.1 
million includes $142.6 million for Management and Administration (M&A) 
and $656.5 million for research, development, testing and evaluation. 
M&A funds federal employees' salaries, benefits, travel, and other 
expenses at Headquarters and the S&T laboratories. This staff maintains 
oversight of S&T's extensive day-to-day technical and administrative 
operations. M&A also funds business operations, including working 
capital fund, and management support. Research, Development, 
Acquisition and Operations supports the needs of the operational 
components of the Department and is categorized to match the new S&T 
organization.
    <bullet> The $25.9 million requested for Borders and Maritime 
Security will support technology development for the Secure Border 
Initiative (SBI), a comprehensive multi-year plan to secure America's 
borders. This Division is providing the tools, processes, and manpower 
to ensure SBI implementation is effective and affordable. We are 
working directly with the SBI program executive office to provide a 
transformation strategy for SBI; develop the next generation of 
modeling and analysis tools for strategic planning; and provide systems 
engineering support. The Division will also develop and transition 
technologies to industry to reduce risk and support border security 
programs like SBInet, a technology acquisition program under the 
Customs and Border Protection SBInet Program Management Office.
    We are also developing technologies to ensure the integrity of 
cargo shipments with known origins, and to better target suspicious 
shipments, and to enhance the end-to-end security of the supply chain--
from the manufacturer of goods to final delivery. One of the most 
significant potential terrorist threats to the Nation is the vast 
numbers of shipping containers that flow through our borders each year, 
most of which enter without physical inspection. Technologies and 
processes developed within this area will assure government customs and 
shippers of the integrity of shipping containers and its cargo and 
communicate the container's status as well as security information. By 
employing a system-of-systems approach, this will deliver technological 
capabilities to DHS customers and end users that address supply chain 
vulnerabilities. These capabilities are directed toward enhanced 
physical security and information management, and bound by a security 
architecture which encompasses the world's supply chain.

    <bullet> The $228.9 million requested for Chemical and Biological 
will provide the basic knowledge, technologies and systems needed to 
protect against possible chemical and biological attacks on the 
Nation's population, agriculture or infrastructure. The greatest 
emphasis is on those biological attacks that have the greatest 
potential for widespread catastrophic damage to the population. These 
include--but are not limited to--aerosolized anthrax, and smallpox.
    The Division conducts material threat and risk assessments on both 
naturally occurring and engineered agents; conducts experiments to 
close major scientific knowledge gaps that could have a large impact on 
how the Nation responds to a biological attack; and provides scientific 
support to the intelligence community. As such, the primary output is 
an intelligence-informed, scientific characterization and 
prioritization of the bio-terrorist risks to be used by the Homeland 
Security Council and partnering agencies (e.g. DHHS, EPA, USDA, and the 
Intelligence Community).
    Based on this knowledge, we are developing effective measures for 
deterrence, detection, and mitigation of biological terrorism acts 
against the U.S. population, infrastructure, and agricultural system. 
This includes developing tools to meet Federal, State, and, local 
emergency responder needs such as operational models to support 
Interagency Modeling and Atmospheric Assessment Center (IMAAC).
    The Division is developing next-generation, biological-threat-agent 
detectors that recognize the signatures or fingerprints of biological 
agents. These detectors will be incorporated into the BioWatch system 
to substantially increase the system's capabilities and significantly 
reduce the response time. Other significant program activities include 
developing biological aerosol detection and sensor systems for 
monitoring the Nation's critical infrastructure such as government 
buildings, airports, subways, office buildings, shopping malls, sports 
arenas, hotels and hospitals. These ``detect-to-protect'' systems 
detect biological agents within minutes (acting as reliable `smoke 
alarms') to protect high value facilities and their occupants. Many of 
the technologies being developed in this program will be manufactured 
and used by the private sector.
    Chemical countermeasures work enhances the Nation's capability to 
anticipate, prevent, protect from, respond to and recover from chemical 
terrorist attacks. The chemical threat spectrum comprises a broad array 
of chemicals, to include chemical warfare agents, toxic industrial 
chemicals, and non-traditional agents (NTAs). NTAs include highly toxic 
materials that have seen development interest by foreign entities but 
are not yet fully developed as weapons. The barrier to proliferation of 
critical NTA information into rogue states and terrorists is 
increasingly thin. Existing and emerging chemical warfare agents can 
potentially be used against virtually any civilian target resulting in 
significant loss of life and impedance in the use of key 
infrastructure. Chemical countermeasures addresses these threats by: 
enabling comprehensive understanding and analyses of chemical threats; 
developing pre-event assessment, discovery, and interdiction for 
chemical threats; developing warning, notification, and timely analysis 
of chemical attacks; optimizing technology and process for recovery 
from chemical attacks; and enhancing the capability to identify a 
chemical attack's source.

    <bullet> The $63.6 million requested for Command, Control and 
Interoperability will fund programs focused on cyber security; 
communications, compatibility and interoperability; and knowledge 
management.
    Cyber security research, development, testing and evaluation is 
focused on improving the security of the existing cyber infrastructure 
and providing a foundation for a more secure infrastructure through 
coordinated efforts with other Government agencies and private 
industry. Cyber attacks on U.S. information networks can have serious 
consequences such as disrupting critical operations, causing loss of 
revenue and intellectual property, or loss of life. The Division also 
addresses cyber security requirements from internal Department 
customers in support of the DHS's operational missions in critical 
infrastructure protection. It also addresses related aspects of 
national security and emergency preparedness telecommunications.
    Communications, interoperability and compatibility programs within 
Command, Control and Interoperability strengthen interoperable wireless 
communications, improve effective information sharing, and develop 
tools to enhance overall coordination and planning at all levels of 
government. Currently, the Nation's capacity for interoperable 
communications is hindered by suboptimized planning and coordination, 
and Office for Interoperability and Compatibility, and Integrated 
Federal, State and local information sharing are working to strengthen 
and integrate interoperability and compatibility.
    We are also developing knowledge management tools to reduce the 
risk of terrorist attacks and to prepare for and respond to natural and 
man-made disasters. This will provide new capabilities for the DHS 
Intelligence & Analysis Directorate and the DHS information enterprise 
for the integration, management, analysis, and dissemination of 
actionable information. This knowledge management research provides 
tools and methods to handle massive amounts of information that is 
widely dispersed in a great variety of forms. Being able to find such 
information, understand its meaning, and then use it to assess an 
actual threat and determine the level of risk before an attack or 
incident occurs is the best way to save lives and preserve our way of 
life.

    <bullet> The $63.7 million requested for Explosives will fund 
programs focused on the detection, mitigation, and response to 
explosives threats such as improvised explosive devices (IEDs) and 
suicide bombers. The Division employs a broad range of existing and 
emerging approaches to detect and lessen the impact of explosive 
materials. These include baggage-screening devices as well as the 
capability to identify explosives residue. Terrorist events like the 
Madrid rail bombing, the London Underground attack, and the recent 
disclosure of planned attacks on U.S.-bound flights from the United 
Kingdom, all involved explosive threats. Those events underscore the 
operational need for a unified approach to the detection of, response 
to, and mitigation of explosive threats across all modes of 
transportation.
    In explosives detection, we are improving existing explosive 
detection methods, developing new technologies, and integrating 
improvements and technological developments into both deployed and new 
systems. Detection is a key defense against successful attacks. For 
example, the Check Point Program applies to multiple venues where real 
or virtual portals exist. Historically, airports have received the most 
attention, but similar portal situations can be found at rail stations 
and cruise ship terminals. Check point programs address suicide 
bombers, carry-ons, leave-behind IEDs, and vehicle-borne IEDs. The two 
other principal programs in this area are checked baggage and cargo. 
Like aviation, rail and ship modes share checked baggage and cargo 
screening challenges.

    The check point program addresses the risk of catastrophic loss of 
mass transit resulting from small IEDs detonated in passenger cabins 
and the catastrophic loss or hostile takeover of mass transit resulting 
from the presence of certain weapons in passenger cabins. The principal 
objective of the program is developing advanced technology for 
integration with future check point systems to detect explosives and 
concealed weapons, while meeting requirements for automation, 
efficiency, and cost reduction. Longer-term objectives include applying 
systems integration and a seamless flow of information with reduced 
impact to the checkpoint operations environment. The program also 
strives to upgrade currently deployed technologies to address emerging 
threats and concealment methods.
    The checked baggage program identifies and develops the next 
generation of checked baggage screening systems, and supports 
continuous improvements toward the Congressionally directed goal of 
100-percent screening of aviation checked baggage by electronic or 
other approved means with minimum or no impact to the flow of people or 
commerce. Checked baggage will focus on continuing work with Manhattan 
II by conducting system development and integration of the Manhattan-II 
checked baggage program, complete the preliminary system architecture 
test and evaluation, and conduct detection-technology test and 
evaluation.
    The cargo program is developing the next generation of air cargo 
screening systems, with transition targeted for FY 2011.
    <bullet> The $12.6 million requested for Human Factors will apply 
the social and behavioral sciences to improve detection, analysis, and 
the understanding of threats posed by individuals, groups, and radical 
movements. This knowledge will support the preparedness, response and 
recovery of communities impacted by catastrophic events and to advance 
national security by integrating human factors into homeland security 
technologies. Further this will enhance the capability to control 
movement of individuals into and out of the United States and its 
critical assets through accurate, timely, and easy-to-use biometric 
identification and credentialing validation tools.
    <bullet> The $24.0 million requested for Infrastructure and 
Geophysical will develop technical solutions and reach-back 
capabilities to improve State, local, tribal, and private sector 
preparedness for and response to all hazardous events impacting the 
population and critical infrastructure.
    The Division's focus is on identifying and mitigating the 
vulnerabilities of the 17 critical infrastructure sectors and key 
assets that keep our society and economy functional. The Division 
models and simulates the Nation's critical infrastructures to determine 
how various scenarios will affect each sector, provides decision 
support tools to guide decision makers in identifying gaps and 
vulnerabilities, and develops predictive tools and methods to aid in 
preparing for and responding to various catastrophes. Additionally, the 
Division focuses on responder preparedness and response capabilities 
that improve the ability of the Nation to prepare for, respond to, and 
recover from all-hazards emergencies. Applying the best available 
science and technology for the safety and security our emergency 
responders and homeland security professionals ensures they may 
effectively perform their jobs--saving lives and restoring critical 
services.
    The Division is also developing a capability that will enable 
owners and operators of the most vital critical infrastructure sites to 
implement affordable and reliable blast and projectile mitigation 
measures improving capabilities to withstand these threats. The program 
is developing suites of advanced materials, design procedures, and 
innovative construction methods that can be used to protect critical 
infrastructure and key resources.
    In addition, the Division is developing decision-making and 
information-sharing tools to aid responders. This will dramatically 
enhance the information management and information sharing capabilities 
of incident commanders and emergency responders as emergencies 
increasingly demand more highly coordinated responses.
    <bullet> The $73 million requested for Innovation/HSARPA, 59.9 
million of which will focus on homeland security research and 
development (R&D) that poses a risk of failure, but if successful would 
lead to significant technology breakthroughs that would greatly enhance 
DHS operations; the remainder includes the SBIR program. HSARPA carries 
out its activities in two areas: (1) Homeland Innovative Prototypical 
Solutions, which are designed to deliver prototype-level demonstrations 
of game-changing technologies in two to five years. These programs are 
moderate risk, but offer high pay-off and (2) High Impact Technology 
Solutions, which are designed to provide proof-of-concept answers that 
could result in high-payoff technology breakthroughs. Though there is a 
considerable risk of failure, these projects offer the potential for 
significant gains resulting from success.
    The $88.8 million requested for Laboratory Facilities will fund 
operation of the S&T laboratory facilities, including Plum Island, the 
Transportation Security Lab, Environmental Measurements Laboratory, the 
Chemical Security Analysis Center, and the National Biodefense Analysis 
and Countermeasures Center. Laboratory Facilities also funds design 
work on the National Bio and Agrodefense Facility and upgrade of the 
Plum Island facility.
    <bullet> The $25.5 million requested for Test & Evaluation and 
Standards funds two areas Test and Evaluation (T&E) and Standards. T&E 
works across DHS and ensures that systems meet the capability needs of 
users, validates performance and provides measurable improvement to 
operational capabilities. Effective testing and evaluation programs 
provide crucial information to decision makers for acquisition and 
deployment of technology. Standards are consensus based measures--from 
basic specifications to performance criteria--that give DHS and its 
customers confidence that technology and systems will perform as 
required. The S&T Directorate works across DHS and with numerous 
external partners to build consensus and support development of needed 
standards.
    <bullet> The $24.7 million requested for Transition programs will 
expedite technology transition to deliver near-term products and 
technologies to meet DHS component requirements. This area also funds 
the Office of the SAFETY Act Implementation, transition support 
programs such as the Technology Clearinghouse, and the S&T 
Directorate's international and interagency programs.
    <bullet> The $38.7 million requested for University Programs will 
allow the S&T Directorate to engage the academic community to support 
current DHS priorities and enhance homeland security capabilities by 
providing ground-breaking research, analyses and educational 
approaches. The program is designed to bring together the best 
scientific talent and resources from U.S. academic institutions to help 
solve complex and technologically challenging homeland security 
problems facing our Nation. Program activities simultaneously focus on 
building homeland security expertise in the academic community, 
creating strategic partnerships, and fostering a new generation of 
homeland security experts.

        The program works to:
        <bullet> Strengthen U.S. scientific leadership in homeland 
        security research;
        <bullet> Generate and disseminate knowledge and technical 
        advances to aid homeland security frontline professionals;
        <bullet> Foster a homeland security culture within the academic 
        community through research and education programs; and
        <bullet> Build a highly-trained science and engineering 
        workforce dedicated to homeland security that will sustain 
        progress over time.
    This program invests in two areas: the university-based Centers of 
Excellence, and student Scholarships and Fellowships intended to build 
and develop the next generation of academic researchers in disciplines 
that are relevant and essential to homeland security.

CONCLUSION
    In conclusion, I am pleased to report that the S&T Directorate is 
well positioned today to mobilize the nation's vast technical and 
scientific capabilities to enable solutions to detect, protect against 
and recover from catastrophic events.
    Our plans for restructuring the organization have been implemented 
and it is indeed gratifying to see that they appear to be working as we 
advance to the critical phase of product transition. Increasingly, our 
DHS customers are recognizing the substantial value that S&T's 
technical expertise brings to their operations. We have engaged them, 
eliciting participation at the highest levels, to join us at the table 
to work constructively on solutions for countering the formidable 
threats this nation faces.
    We appreciate the many demands on the taxpayers' precious dollars 
and you have my commitment that the S&T Directorate will be wise 
stewards of the public monies you have entrusted to us. We are 
steadfast in our resolve to serve the best interests of the nation by 
investing in the talent and technology that will provide America with a 
sustainable capability to protect against acts of terror and other 
high-consequence events for generations to come.
    Members of the Committee, I thank you for the opportunity to meet 
with you today to discuss a newly realigned Science & Technology 
Directorate that is meeting homeland security challenges with a renewed 
sense of purpose and mission. I look forward to working with you 
throughout the 110th Congress.

    Mr. Langevin. I will remind each member that he or she will 
have 5 minutes to question the panel, and I will now recognize 
myself for questions.
    Admiral with respect to personnel and morale problems at 
the S&T Directorate, Admiral Cohen, I have a question about 
these issues. A government agency, as you know, is only as good 
as its employees; and we are seeing some extremely disturbing 
trends in the Department, as I said in the past. The recently 
released Office of Personnel Management survey ranked DHS at or 
near the bottom in job performance and job satisfaction.
    Though I know that the Department's employees are, by and 
large, extraordinarily capable and dedicated, I am concerned 
that the best and the brightest are either no longer willing to 
come to the agency or are leaving in droves because they are 
fed up with poor management.
    Anecdotes shared by former S&T employees are disturbing, as 
you can imagine. Committee staff has spoken with several former 
employees last year, admittedly at the early stages of your 
tenure, which I acknowledge. Most spoke about their high hopes 
for the organization. Which eventually yielded the 
disappointing realities of deficient leadership and 
bureaucratic morass.
    Now I mentioned the quote by the former employee in August 
, 2006, which deeply concerns me. I am also concerned about the 
Department's efforts to hire more government workers and less 
contractors.
    In reviewing your budget, I see that there are a large 
number of employees at the GS-14 level, actually, about 133 
employees, and GS-13 employees, 89 or so on the scale, compared 
to employees at the middle levels of the schedule.
    You previously stated that one of your priorities is to 
establish an organization composed primarily--or predominantly, 
rather--of government employees, with a small number of 
contracting support staff and IPAs. I am concerned that the 
current organization, composed mostly of upper-level employees, 
does not encourage long-term stability.
    So my question is this, will you provide the subcommittee 
will your plan to improve morale, minimize turnover, strengthen 
workforce recruitment and secure institutional memory within 
your Directorate?
    Mr. Cohen. Yes, sir.
    Mr. Langevin. Thank you, Admiral. Good answer. Thank you.
    Let me turn now to delay of issuing the national S&T 
strategic plans. Homeland Security Act, section 302, part 2, 
that suggests that Congress pass the 2002, requires the 
Secretary to develop, one, a national policy on homeland 
security science and technology and, two, a strategic plan for 
the Science and Technology Directorate.
    Unfortunately, neither of these plans has ever been 
produced. I understand that the S&T strategic plan, but not the 
national plan, will finally be delivered to the Congress by the 
end of March. I think this strategic plan must explain the 
method by which long-term and short-term projects are 
prioritized and funded within the Directorate.
    As you know, the S&T is working with a very limited budget 
right now. S&T needs to make sure that its investments will 
more than likely lead to procurement requests by the Department 
components. Similarly, the Department components need to be 
able to discuss their requirements with S&T through the process 
to ensure that S&T is providing them with what they need. 
Therefore, there must be some formalized Department-wide 
coordination on R&D policy and procurement.
    Now I studied your Integrated Project Team, IPT, structure; 
and I believe that this is a definitely a step in the right 
defection. The IPT allows the communication between acquisition 
component and S&T program manager to make sure that everyone is 
working together. But I would like to see some formal documents 
or agreements that S&T and the components enter into to really 
ensure that the expectations of both parties are clearly 
spelled out ahead of time. So I would like to know how these 
projects would be prioritized. I think that we were all 
bewildered, actually, last summer when we found that liquid 
explosives were not a high-priority issue for the Department at 
the time.
    So the strategic plan must explain how projects are 
prioritized on the corporate review board, which oversees large 
acquisitions, and the old Management Directive 1400, which 
previously recreated coordination between S&T and the 
components.
    So my questions are these:
    First, will these issues be addressed by your strategic 
plan; and, second, when can we expect the release of the 
national plan for science and technology?
    Mr. Cohen. Well, chairman, first of all, as you know, I 
believe in full transparency. The enabling legislation 
indicates that the vast majority of the S&T and the research 
that I do in my Directorate be unclassified. We have provided, 
as you know, in the new organizational construct for special 
access programs and classified programs, but I believe that my 
priorities and the adjustment portfolio needs to be transparent 
so that the best can contribute.
    Concerning the National Research and Development Plan, I 
have had a chance to review that draft, and it is quite thick, 
as you can imagine, because it involves almost all of the 
Federal agencies that was prepared in both 2005 and 2006. I 
will make that available to the Congress. I have no 
participation in that.
    But the enabling legislation was very wise. You did not 
intend, as I read those 19 pages, to have me recreate the 
National Institutes of Health, the National Science Foundation, 
the DOD or the DOE labs; and I believe that was a very good 
model. You did give me access to leverage, and I appreciate 
that very much, the DOE labs and my own small labs.
    But you did want and encourage me and the other departments 
of government to have me leverage their tens of billions of 
dollars of S&T science and technology investment, whether it is 
basic research, applied research or advanced technology, 
without further investment by me so that I could then harvest 
it and apply it to the needs of the homeland security mission.
    I cannot specify to those other departments where or how 
they invest. They have their own requirements process. They 
have their own appropriations law and oversight. But, to the 
extent they do, they give that to me; and then I can leverage 
that.
    Our integrated product team, for instance, we have the 
Technology Support Working Group, TSWG, which is the central 
focus in the Department of Defense, at the table offering 
technologies to my customer. We have brought the Department of 
Energy and others, HHS, USDA, on board likewise.
    So the national plan had difficulty--and I am going now on 
information that I have received--in getting approval by all of 
the departments throughout the Federal Government because there 
was a perception--I believe an incorrect perception--that the 
S&T Directorate in Homeland Security was trying to mandate how 
and where they should invest, which is not provided for in the 
enabling legislation.
    So on the national plan, I will work--as you know, in my 
organization I have a liaison for agencies and a foreign 
liaison who are already very active in doing this--to bring to 
you a coordinated plan that leverages what they are doing but 
focused on homeland security; and I hope to do that under Dr. 
Marburger, who is responsible, in large measure, for 
coordinating S&T across the government.
    As for my strategic plan, I have put in place in the last 6 
months an organizational construct and processes which, as we 
did in Navy, very quickly aligned to the goals and the 
requirements of the customer and the mission of the 
organization. Then what we do is we take excursions, whether 
that is an innovation, higher risks, sometimes too high a risk, 
for acquisition, but also where we can't solve problems or we 
don't have the enabling technology, that is the basis for basic 
research. That is where we invest in the universities and the 
laboratories.
    So what you will see--and you will get this no later June 
of 2007--my strategic plan as we go forward--and it will be 
comprehensive--addressing the concerns that you have addressed 
this afternoon, because I share those concerns--you will see 
would follow the processes I have put in place.
    Finally, we have been going very fast, as you know, because 
the Nation is at war and I want to get the deliverables to my 
customers and the customer of my customers. Organizationally, I 
have established--and it is in writing, and it will become a 
Management Directive--what I call the STORM, Science and 
Technology Organization Regulation Manual; and it clearly 
specifies in writing without question what the roles and 
responsibilities are to support the organization. I briefed the 
committee and you on that.
    We are operating under--that is the basis for our budget, 
that the Congress very kindly allowed me to come in with an 
omnibus reprogramming for fiscal year 2007 to initiate these 
programs as well as OMB, who aligned the 2008 budget to do 
this.
    But we in the IPT process, which we have in large measure 
taken from what we did in the Navy, we have informal documents 
now. We are glad to provide to you the memorandums of 
understanding.
    We are in the fourth round now in all of the capstone--11 
capstone integrated product teams, with Kip Hawley, Mark 
Sullivan, Vice Admiral Johnson, Chief Aguilar, sit as the 
customer. They have not delegated this. They sit there. They 
tell us their needs. We tell them when the money--we will 
translate that into a Management Directive now that we have 
Paul Schneider, the new Under Secretary from management on 
board; and I am so pleased to be working with him because he 
and I had the same tag team in Navy and we expect the same 
results in Homeland Security.
    So we will give you the formal documents, but I will not 
allow the administration and the bureaucracy to get in the way 
of the deliverables for my customer.
    Mr. Langevin. Thank you, Admiral. I have great confidence 
in you and look forward to our working with you.
    It is now my pleasure to recognize my ranking member of the 
subcommittee, the gentleman from Texas, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to welcome the witnesses again. Admiral Cohen, after 
our visit last week, I am convinced the Department has hired 
the right man at the right time; and I know, as we say in the 
Navy, you will be able to turn this ship around.
    I come from a State, as you know, that has more 
international border with Mexico than any other; and it has one 
of the largest ports in the world, Port of Houston. I think our 
greatest fear on this, sitting on this committee, is the 
thought that a weapon of mass destruction could somehow get 
into this country. I know you share that concern, which is why 
you are where you are doing the great service you are to this 
country.
    I want to hit on three areas that I want you to address 
from a technology standpoint but also from a budgetary 
standpoint in terms of what you intend to do about it.
    The first has to do with detection capabilities. I know 
that DNDO is primarily focused on nuclear detection at the 
ports and at the border. They had made some progress which I am 
happy to see. But BioWatch obviously is a program that is under 
your jurisdiction that has to do with detecting biological 
weapons possibly getting in either through ports or at the 
ports of entry, land ports.
    The second issue is the biometric and credentialing 
technologies that I believe are so important to determine who 
is coming into this country, how can we keep track of these 
individuals, and how can we enforce an exit program which I 
think is severely lacking, if you will, today. And if we are 
going to discuss any sort of temporary worker program, that is 
obviously going to be a key element to that.
    Then, finally, as you know, we passed in the last Congress 
a Secure Fence Act which does call for physical barriers at 
strategic points on the border. I have always been a believer 
that technology can be our best friend here and technology 
between those barriers can provide a virtual wall, and we are 
just not quite there yet.
    If you can comment on the status of that. I know I am 
throwing a lot in into one question. Comment on these three key 
points and where are we in terms of budgeting for these issues?
    Mr. Cohen. Yes, sir.
    Well, all of these, of course, are very, very important 
issues that the Congress has shown leadership and worked 
closely with the administration on. You have indicated that in 
the nuclear radiological area that the Domestic Nuclear 
Detection Office, DNDO, which with the concurrence of the 
Congress under section 872, was divested from the S&T 
Directorate last year and now stands as a cradle-to-grave 
organization very similar to naval reactors in the Department 
of the Navy.
    I know that Vayl Oxford, who heads DNDO, testified with me 
last year. I am sure he will testify with me again and 
independently of me this year. And I know that Secretary 
Chertoff in the hearings he has already had this year has 
addressed the significant efforts that we have made in nuclear 
radiological screening at the ports, not only seaports but the 
port of entry and the plans to go forward over the next couple 
of years.
    I know that there have been some press articles on this for 
some of the experimentation which I salute Vayl Oxford for 
leaning forward in the New York City area. But, as I briefed 
you, I have responsibility. While Vayl is inch wide and a 
thousand miles deep, I am one inch deep and a thousand miles 
wide. That is the nature of S&T, and I think that is 
appropriate.
    So in our innovation portfolio, under what I call our 
homeland innovative prototypical solutions, we have proposed in 
the budget that I go forward with an initiative which we call 
SAFECON, for safe container. We have to be mindful not only of 
the security but also of the economic impacts of what we do.
    So in the 30 seconds it takes for the claw to take that 
20--or 40-foot container off a ship and then land it on the 
trailer as we go forward, it is my goal, in at least two 
different ports, to go ahead and experiment with nuclear 
radiological scanners which we will ask DNDO to help us with, 
but also chemical, biological as well as explosives, meaning 
conventional explosives, and also looking for stowaways, 
looking for people who are illegally trying to come into the 
country through these means. So that in the 30 seconds that a 
claw is on that container, as it is being moved it will do all 
of those scans.
    It may require that we have a composite top instead of a 
steel top on containers. But we know how to do that in 
legislation. It may require that there be rubber-sealed 
puncture holes at specified points where probes can go in and 
sense what is inside the container. But the goal would be in 
the 30 seconds all these scans would be done.
    If the operator gets a green light, it is clear. It lands. 
Commerce goes on.
    If the operator gets a yellow light, it means scanning 
complete. It goes to the holding area. We inspect it by other 
means.
    If they get a red light, it means there is something 
nefarious; and in my mind, although I am not operational, it 
will go back on the ship and we will consider the ship's 
sailing. There are a lot of people who don't like that 
solution, but there are other things you can do. The ship 
doesn't necessarily have to sail.
    So that is what we are looking to do to bring technology to 
bear.
    Now some people have told me some of these technologies 
don't exist. Others may take 30 hours, others may take 30 
minutes. I am a big believer in competition. Leadership by 
embarrassment. Build it and they will come. So if we can't get 
everything in 30 seconds it tells me where I need to change my 
basic research. It goes to the chairman's point of how do we 
focus where we invest to find a phenomenology.
    You asked about biometrics. This is a very important area. 
The Secretary, Secretary Chertoff, has already testified to the 
desire to get the 10 fingerprints. Candidly, I didn't 
understand why you needed 10 fingerprints before I came to the 
Department. But I do now understand that there are so many 
latent fingerprints, you know, that are unidentified that now 
with 10 fingerprints we can better identify identities to 
events, crimes, other events that have occurred, as part of 
keeping one of Secretary Chertoff's top priorities, bad people, 
out of the United States.
    We are committed to this. And I think if you ask the 
Commandant of the Coast Guard, he will share with you, if he 
hasn't already, a testimony. His handheld detector that we 
provided that they take on board ships, it takes a picture of 
the individual. In his case, it takes one finger. We are going 
to give him 10 fingers here before too long. Ideally, we will 
give him 10 fingers without even having to touch the screen, 
and they are then connected wirelessly. The Commandant has told 
me that he gets a 14 percent hit rate with individuals that 
they are scanning as they board ships who are people of 
interest.
    And I will leave it at that.
    Finally, a secure fence area, the Secretary has testified 
that under SBInet he drove for proven technologies, and that 
was to get the solution out there at a reasonable and a 
predictable cost. Boeing and others subs went ahead and won 
that contract, and they are in the process of putting that 
solution in place.
    But, Congressman, you have it exactly right. We can go a 
lot farther in technology.
    Again, with what we are doing, we talked a little bit about 
a Project CLOE, and there are other things to bring unmanned 
aerial vehicles, persistent surveillance. I think the Under 
Secretary has testified that, by using microwave radars between 
two mountain peaks, that Customs and Border Protection were 
able to identify day and night everybody going through and then 
with helicopters and vans able to intercept everybody.
    So I think your focus is very well defined. We have 
investments in all of those areas, and we are pushing them 
pretty hard, sir.
    Mr. McCaul. Well, thank you, Admiral.
    Thank you, Mr. Chairman.
    Mr. Langevin. Thank you.
    The Chair will now recognize other members for questions 
they wish to ask the witnesses. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the start of the hearing based on seniority in the 
subcommittee, alternating between majority and minority. Those 
members coming in later will be recognized in the order of 
their arrival.
    It is now my pleasure to recognize for 5 minutes the 
gentleman from North Carolina, Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Admiral, welcome. Thank you for being here. I know you have 
been working hard to reorganize the S&T Directorate, and we 
appreciate that. Obviously, a lot of issues have come up as the 
best way to utilize the S&T personnel, and we are appreciative 
of that also.
    Let me ask you a question about some particular issues with 
the use of Intergovernmental Personnel Act employees, known as 
the IPAs. Because there is--as you just said, we can deal with 
all the gadgets we want, but at the end of the day it really 
comes back to the people we have in our agency who work with 
us.
    This committee is familiar with the December 05 GAO report 
that describes the significant problems with the way that S&T 
handled its IPAs. As you know, IPAs are paid by the Department 
of Homeland Security but actually are not employees of the DHS. 
They are essentially on loan to the Federal Government from 
universities or State and local government.
    This is a great way of not paying in and--I think you 
agree--to utilize the expertise and get the much-needed talent 
into the Department that we need very quickly; and we are 
thankful for the hard work that many of these IPAs have brought 
to the staff and the work that they do every day.
    Unfortunately, as the GAO points out, the Department does 
not have adequate ethical procedures or ethics procedures to 
utilize these IPAs. In response to a query by committee staff, 
DHS legislative affairs wrote October 12, 2006, and I quote, 
S&T is working with the Chief Human Capital Officer and the 
Office of General Counsel on a guide that will provide the 
comprehensive information needed for the hiring of IPA 
detailees and administering their assignments.
    My question to you is this: What are your plans for 
integrating IPAs into DHS workforce? Number two, how do IPAs 
fit into your overall strategy for reorganizing the 
Directorate? Third, has a guide been produced? And, if it has, 
has it enabled you to fully utilize these IPAs? And if it has 
been provided and produced, will you please provide the 
committee with a copy of that type?
    Mr. Cohen. Yes, sir.
    First of all, I would like to thank the Congress for 
providing for the Interagency Personnel Act. This is 
invaluable, not just in science and technology but throughout 
the government, to get the best of the best, as you have 
indicated, on a rotational basis, whether it is from 
laboratories or universities. In my case, the enabling 
legislation very wisely paralleled the legislation, unique 
legislation, for the defense advance research projects and you 
allowed me to have DARPA like IPAs; and I am fully utilizing 
that in my innovation portfolio.
    But I was very familiar with IPAs when I got to the Office 
of Naval Research; and, as you know, I was there for 6 years. 
And in the 6 years I was there I reduced IPAs from 60 to under 
30. We produced a Management Directive--I will use the DHS term 
instead of the Navy term--that was very clear, and I brought 
that Directive with me to the Department of Homeland Security. 
Because if you don't apply the highest ethics and the highest 
standards to the IPA program, while you may not have a 
statutory problem, you certainly have a perception problem.
    So when individuals come as IPAs to my organization, they 
must sign clear nondisclosure to their parent organization. 
They must recuse themselves from any dealings, whether it is 
contractual or otherwise, with the parent organization. But, 
even with those constraints, the IPAs are far too important to 
the safety of the Nation for us not to utilize those.
    Mr. Cohen. So I will as soon as I turn my Navy management 
directive, which I have been following, vetted by the OGC, 
vetted by the IG, et cetera, and let me just say, Chairman 
Langevin, so you understand, as we talk about integrated 
product teams or anything else I do, I have invited the DHS IG, 
and they have willingly and actively sat in as observers to all 
the processes I have put in plan, and I extend that invitation, 
as I did in Navy, to the staff majority and minority, whenever 
is convenient for them, whether it is my budget reviews, 
anything that is not executive department proprietary, which is 
very small in my portfolio, they are welcome to see how these 
things work.
    I have already reduced the number of IPAs in Homeland 
Security by five. IPAs are well worth what we pay for them, but 
the very ability of the cost is significant depending upon who 
their sponsor might be. We can end up paying twice or more the 
salary that the individual is getting for overhead at the 
parent organization, and as a custodian of the taxpayers' 
precious investment and with the limits that I have on my M&A 
account, I just cannot afford that. So I will share with you 
the directive that I use if you will accept the Navy version 
first. I am glad you can hold me accountable for that. I will 
then put it into DHS language. But I have my director of 
research has come to me from Los Alamos. Many of you know Dr. 
John Vitko, created the world class BioWatch program which, you 
know, 3 years ago, was poorly received and now just 
transitioned to the Office of Health Affairs. I have in test 
and evaluation, an area that is critically important, a world 
expert that comes from southern Maryland; he actually comes to 
me on the cheap.
    So they are peppered throughout the organization, but 
everyone knows who they are, and we are going by the letter of 
the law, and I welcome the oversight.
    Mr. Etheridge. Thank you very much. We would welcome the 
material, and you are a breath of fresh air.
    Thank you, sir.
    Mr. Langevin. The gentlelady from Tennessee, Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here. Admiral, I love hearing you talk 
about deliverables and talk about the expectations that we and 
you have. And I think that is an important dialog for us to 
continue because our constituents certainly are concerned about 
security. I would say it is the number one issue as they look 
at the security of this Nation, both home an abroad. And we 
appreciate the work that you are doing and the task you have 
taken.
    I loved your enthusiasm when you were talking about the ten 
fingers and getting the print there as we fight--look for our 
bio vulnerabilities if you will and BioWatch. And I recently 
had the opportunity to view the new vein imaging technology 
that is coming online and was amazed with the accuracy rate 
with that. I am hopeful, as you are, that there are 
possibilities there.
    I want to discuss four separate areas with you, one is the 
IEDs and then another one is SBI Net, the screenings and then 
cyber security. So we will go through these as far as we get in 
the 5 minutes allowed. We will submit to you in writing if we 
don't get through them. Looking at your testimony and 
considering IEDs, and you spoke to this a little bit talking 
about your cargo screening, and I imagine some of the 
technology that you are using there looking through, looking at 
screening cargo and then at cargo carrier protection, you are 
also applying that to vehicles. And I would like to know if you 
are or what you are doing that would look at the vehicle 
protection.
    Mr. Cohen. Yes, ma'am. As you are well aware, IEDs and 
vehicle-borne IEDs are in large measure the weapon of choice 
today by terrorists around the world. You see the carnage that 
they are causing in Iraq. I am not in DOD anymore, but in the 
paper they indicate upwards of 70 percent of all the casualties 
are associated with IEDs.
    The Congress has been very generous with General Montgomery 
Migs and the joint IED task force in the Department of Defense. 
I believe you have invested over $6 billion over the last--
    Mrs. Blackburn. If I may interrupt, sir. Specifically what 
are you all doing, what are you targeting there? Are you at 
liberty to tell us what kind of timeline you are on for 
producing something that will give extra protection to vehicles 
for these explosive devices?
    Mr. Cohen. The short answer is that the $6 billion has been 
spent on the here and now, what you would call the low-hanging 
fruit. And we have had enormous success, but the leakage, the 
leakage, and I will leave it at that without percentages, still 
causes the carnage that you see.
    I had lunch with Secretary Gordon England in December at 
his request. As you know, he was secretary of the Navy, then 
deputy secretary of Homeland Security, then back and forth and 
3 years ago, he started what he called the Manhattan Project to 
predict, detect, defeat and destroy IEDs at range. That 
includes vehicle IEDs, and he defined it as 100 yards.
    The reason that he wanted to do that was to change the 
calculus so that we and our first responders as well as our 
military would be able to detect, and while there still might 
be collateral damage with these explosions, they would be set 
off when we desired, not when the bomber desired.
    This is an area we today do not yet have the technology, 
and so why I have budgeted for this and what I am working with 
DOD is for me to take the basic research working with our 
laboratories, DOE, working with our universities, in short, 
Congresswoman, I am looking to replicate a dog's nose that our 
first responders can use to go ahead and do this. The 
technology is not there today. We have many means to thwart 
IEDs, but we have got to do better, and I am committed to that.
    Mrs. Blackburn. Okay. Then on the SBI Net, are you all 
coordinating with Boeing on the SBI Net project?
    Mr. Cohen. Yes, ma'am. As you are well aware, this comes 
under customs and border protection, Boeing is the prime. And 
as one of my 11 capstone IPTs, I have border protection. Chief 
Aguilar and Director Basham sit as the customer on that. They 
then provide to me what their capability gaps are that perhaps 
the SBI Net is not fulfilling or were too high-risk for that 
contract. And they then direct me to slave my S&T dollars to 
de-risk and provide examples, proof of concept, so that they 
then can offer that with adequate risk tolerance to Boeing to 
include in the technologies used on the border.
    So we are in a one-to-one correspondence.
    Mrs. Blackburn. Mr. Chairman, I will submit my screening 
questions. I did have one on the article today in USA Today on 
the rail test and then some questions on practices and 
processes with cybersecurity.
    Thank you, Mr. Chairman.
    Mr. Langevin. The gentlelady from the Virgin Islands, Ms. 
Christensen, is now recognized for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I would like to welcome the witnesses.
    Admiral Cohen, I am impressed with some of the progress 
that you have reported thus far, especially when you talk about 
people coming back, asking to come back to the Directorate.
    I notice, under your budget, the proposed budget for 2008, 
under chem and bio, there is a drop that, if my BlackBerry 
calculator is working correctly, is about 28 percent. I am 
concerned about that drop, especially given the problems we are 
having with BioShield, the slowness of developing new counter 
agents to respond to biological terrorism and also decrease in 
bioterrorism preparedness funding. It seems to put a lot of 
responsibility on your Department for surveillance, detection, 
protection, and you have those three areas, ag, bio and chem to 
fit into that.
    As you looked at what the budget was providing you for your 
Directorate, did you have to sacrifice some of your objectives 
to fit within that budget? And as you are answering, I am also 
not clear what exactly is left after--what did BioWatch take 
away and leave because we are still talking about surveillance 
and detection under the Directorate.
    Mr. Cohen. Yes, ma'am. As in our personal lives and our 
professional lives, we always have to make a balance in our 
investments. But I would like to address the chem-bio because 
you very accurately represented what has happened. The Congress 
last year, I believe, very wisely established the Office of 
Health Affairs which now has Dr. Runge as the chief medical 
officer, and you also established the Office of Emergency 
Communications.
    Now one of the problems that you have in S&T is it can 
become a self-licking ice cream cone. If in S&T we are 
responsible for not only discovering the solutions, then 
maturing the solutions, but also operating the solutions beyond 
prototypical demonstration, operations are time intensive and 
take a disproportionate amount of money. And so without the 
Office of Health Affairs, and this is why I thank you for it, I 
didn't have a customer for my BioWatch. And as you know, 
BioWatch 2 has been largely successful, and it is in 30 of our 
major cities. We have had over 3 million samples of which we 
have had, I think, 15 or 16 positives which have been reacted 
to. And in fact, just a month ago, the stink bomb that occurred 
in New York City, within an hour of that, Mayor Bloomberg was 
able to say to the good people of New York: We don't know what 
it is, but we know it is not hazardous, and in part, that was 
because of the BioWatch investment.
    So what I did was, and it is in a one-time adjustment to my 
budget, was an $81 million transfer, which is totally the 
operational cost of BioWatch 2 to the Office of Health Affairs 
under Dr. Runge. And what it does is allows Dr. Vitko and his 
good people and my laboratories to now focus on BioWatch 3, 
which we think will be four times cheaper to operate. It will 
be real-time microchip determination as opposed to what we have 
now, the little disks that have to be collected and analyzed, 
and it will be wireless connected so that we will be able to 
cover many more cities in real time.
    So I would prefer to have the $81 million on top of my S&T, 
but it was not S&T, and what we have done is a one-time proper 
alignment.
    Mrs. Christensen. I really think that is what you are to 
do, to do the research, and then once the product is developed, 
turn it over to your customer. Is there any work being done at 
S&T on shortening the time from the time an agent presents 
itself to developing counter measures? We have introduced some 
legislation before, thinking about introducing it again to 
foster and support that kind of research. Are you doing 
anything like that now?
    Mr. Cohen. Absolutely. In fact, on Monday, I was at Plum 
Island where we do foot-and-mouth disease. Genomics and what we 
see around the country and in so many of the States represented 
here is an incredible growth industry, and the rate of problem-
solving is increasing exponentially.
    So I am very encouraged and very enthusiastic. I am not 
sure legislation is required here. In a free-market society, 
you see what is happening, you see where the jobs are being 
created.
    Mrs. Christensen. I just wasn't sure it was being done. And 
knowing that it has in the past taken a long time and we don't 
know what we are going to be faced with specifically, it 
becomes increasingly important to shorten the time to be able 
to provide something to treat or a vaccine to a newly developed 
or mutated agent.
    Mr. Cohen. You are exactly right, and one of the exciting 
areas is what we call DNA, or it has been renamed now agile 
vaccines, that do exactly what you are talking about. Because 
of genomics, we can analyze what the pathogen is, and we then 
can design or tailor the vaccine, and then when the bad guys 
modify it, which regrettably more people and more people have 
access to in a flat world, we then can rapidly respond. There 
is an area that DOD has been very active on, but it is spilling 
over into all areas.
    Mrs. Christensen. Thank you very much.
    Mr. Langevin. I am pleased to recognize now the gentleman 
from California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Thank you both for testifying and thank you for your 
service. Admiral, can you tell me what the Department's plan 
for cybersecurity research and development is? This is an area 
that, among other areas, I think needs a lot of work both here 
on the Hill and also within the Department and within the 
private sector.
    Mr. Cohen. Yes, sir. As you know, this is the fourth of my 
Bs; the bombs, borders and bugs are tangible, but the business 
is not tangible. And I don't know, I am close to it, but I 
don't have personal knowledge, but the papers say that we live 
in a negative savings rate society, which means we live from 
ATM withdrawal to ATM withdrawal; 401(k)s now are all in cyber. 
Everything we do is enabled by cyber, not only our security but 
the underpinnings of our society.
    And so while we can't touch or feel it, we understand the 
consequences of it, and this is an area where, again, because 
the world is flat, there are a lot of evil people who would 
like to do damage to our society and to our economy. So this is 
an area that we take very seriously.
    As you know, in Homeland Security, we now have a cyber 
czar. This represents one of the 11 Capstone IPTs, Integrated 
Product Teams, where my command, control and interoperability 
division is focused. Interestingly enough, the leadership of 
Homeland Security made me bifurcate this particular IPT even 
though it falls under FEMA, and the reason they did that, and 
this was with the input of the bipartisan staff from the 
Congress, was it was concerned that if I had interoperability 
competing with cybersecurity, that interoperability would take 
all the money. And whether that is true or not, we have put 
protections in place.
    And so, as I have indicated in the integrated product teams 
with the cyber czar sitting, Mr. Salazar, in fact sitting as my 
customer, I have a prioritized list from him with a cut line as 
to what we can afford that go to secure protocols, process 
control systems, wireless security, automated vulnerability, 
discovery tools, lack of worldwide data for research 
continuity, and I could go on, but the bottom line, sir, is 
that I expect my customer to hold me accountable in S&T for 
cost, schedule and technology readiness level metrics which we 
review together on a semi-annual basis. And to deliver, I get 
to take risk with millions to prevent putting their systems and 
their acquisition at risk in billions so that we can provide 
the solutions they need. But this is an area that we must stay 
on top, and the challenges will only get greater, not less.
    Mr. Lungren. Let me ask you a question about cyber security 
and innovation. As I look at the budget, out of the $20 million 
designated for cyber security, about 38 percent are directed 
towards innovation, $7.5 million. That is the highest, at least 
on my cursory look, percentage of any of the program areas; a 
third of funding for cybersecurity directed towards innovation. 
But then there don't appear to be any projects within the 
innovation office that are focused on cybersecurity. That seems 
to be inconsistent. Is there any way to clear up my confusion?
    Mr. Cohen. What I have done here in the command, control 
and interoperability, and that is the supporting of my six 
divisions and divisions that support cybersecurity and HITS on 
that integrated process team along with infrastructure 
protection because interoperability is shown mostly under 
command, control and interoperability, but the Department views 
cybersecurity more as an infrastructure protection issue. What 
we have done is laid out the change detection for what we may 
see, people attempting the physical attacks on cybersecurity, 
because it is copper; it is fiber optics; it is wireless, et 
cetera. But I will take that for the record so that we can get 
you the specific details.
    I will tell you that, in the 6 months I have been on board, 
the definition of innovation has been a little bit of a 
challenge. My definition of innovation is where we have a known 
need and we take a higher risk in a shorter period of time than 
acquisition might be able to ingest, but we de-risk it and then 
bring it in where acquisition can use it.
    The customary definition of innovation before I got to this 
Directorate was anything that didn't have a customer. That is 
not an adequate definition of innovation. So I will take this 
for the record, and I am glad to come by, talk with you or your 
staff, and I welcome your input in this area, sir.
    Mr. Langevin. With the agreement of the ranking member, we 
are going to go for a second round if you will bear with us.
    Mr. Cohen. Absolutely,
    Mr. Langevin. Admiral, we have already sunk nearly $300 
million into the Counter-MANPADS Program, and we now have the 
technology ready to deploy and no interest among the commercial 
carriers to use it mostly due to the cost figures of around $1 
million per airplane to install. And then you have the 
maintenance and add fuel costs on top of that. I know that you 
are looking at other ways to protect commercial aircraft. What 
is the point of your doing this research and testing this 
equipment if the airline industry won't partner with us just to 
keep their own airplanes safe.
    And so my other question is would you say it is just a $300 
million boondoggle, and will your new management structure 
ensure this doesn't happen again?
    Mr. Cohen. Well, the short answer is, I am not into 
boondoggles. And in my setup, as you know, I believe in 
transparency, and so I think if I would suggest something like 
that, you would nip it in well in advance of that investment.
    My understanding, as a citizen watching this before I came 
to the Department, I think this was one of the mandates jointly 
from the Congress and from the administration because of the 
threat, the credible threat of MANPAD shoulder-fired weapons 
against commercial as well as military aircraft. As you are 
well aware from your other committee assignments, on the 
military side, we have advanced counter measures and systems 
that are already deployed and employed and just get better. And 
so this was to show the efficacy of this for commercial 
aviation.
    The counter measures do work. We have demonstrated those. 
The $300 million was in large measure used--as I understand it, 
this pre-dates me--to apply that to wide body and other 
commercial aircraft, both cargo and now passenger. I think, as 
you are aware, last year, shortly after I came on board, there 
was an alternative solution at the $10 million level, again, 
encouraged by the Congress to look at alternative solutions 
because of the resistance of the airlines for all the reasons 
that you said to equipping the planes with this, and we in fact 
went to contract on that. I think the three providers are 
Northrup Gruman, BAE and Raytheon, if my memory serves me 
right, a total of $10 million. They are looking at a ground-
based off-plane solution but we are looking as you know, and we 
have presented in this fiscal year 2008 budget as an off-plane 
solution but using persistent surveillance flying above and 
airport where we can use a high-performance, high-endurance 
unmanned vehicle as a decoy, so to speak, and if that is 
successful in testing, we may be able to offer the Congress, 
the administration, Federal Aviation and the industry an 
alternative solution which would give us not only the counter-
MANPADS using the technologies that we demonstrated on the 
plane but, now on the UAV, would also give us the ability for 
the more advanced MANPADS to have a decoy which would allow the 
MANPADS to operate to exhaustion, fuel exhaustion, without 
putting the landing and taking off planes at risk. So I think 
this is an area where we are taking a slightly different 
approach than DOD did, this is an area of innovation. I am 
excited about it. Will it work? Stay tuned. I can't address 
whether $300 million is a boondoggle, and I certainly can't 
address why the aviation industry has not embraced it to date. 
I will leave that to others.
    Mr. Langevin. Just a point, not to ask another question on 
this topic, but obviously, closer working with the customers 
ensures that once we feel that they are actually going to take 
us up on it and work with us to implement it. Admiral, just 
briefly, your budget request includes 20 percent reduction in 
university programs, at the same time you are touting the 
creation of four new university Centers of Excellence. I know 
that the existing centers are forward funded with 3-year money, 
but it is my understanding that you are going to abandon this 
practice for annual appropriations. I would like to ask--I 
would like to see these new centers succeed, but I am also 
worried that you may end up spreading yourself too thin. And 
both the new and existing centers will suffer. Can you explain 
how this is supposed to work?
    Mr. Cohen. Yes, sir, Mr. Chairman.
    As you are aware, as I came into the job in August, there 
was some very strong language in the pending appropriations 
bills relative to the Centers of Excellence. For whatever 
reason, my Directorate was not able to show the alignment of 
the Centers of Excellence that existed at that time with the 
mission requirements of not only the Department but also the 
Directorate. And there was also great concern throughout the 
Congress in a bipartisan way that the Centers of Excellence did 
not adequately represent the intellectual basis around the 
country, and I won't get into the details of that. This was the 
perception on the Hill, and it was reflected in the 
legislation.
    As you know from our prior dealings and public statements I 
have made, I feel very strongly about the responsibility I 
have. It is one of my three strategic goals, and that is to 
proactively invest in the underlying workforce development. 
This includes the student bodies.
    We are in crisis in this country in science and technology. 
People in middle schools in all States are turning away from 
science and math. My understanding is 80 percent of all science 
and math today in the middle schools and high schools are 
taught by good teachers, but 80 percent of them are not trained 
as science and math teachers.
    So this is an area we have got to turn around. To the 
extent that I can dual-use the precious dollars that you give 
me for universities, for students, for fellowships and 
scholarships, I want to make the most of that and, again, I 
want it to be transparent. And so working with both sides of 
the aisle and both the other body and the House in August and 
September, I think you are aware we were able to come to a 
proposal that aligned the Centers of Excellence, which all of 
the existing Centers of Excellence enthusiastically, I met with 
all of the directors--in September, as you know, we had a 
display here on the Hill in the middle of September. And 
because I had six enduring divisions, which you are familiar 
with, they aligned to one or more of those divisions. And what 
that did was it gave me an underlying foundation so that, as we 
have said, with the customer if I didn't have a technology 
solution, I could now go to a Center of Excellence or to a 
laboratory to do the underlying basic research. You don't know 
what you don't know, and that is a very important area of what 
we do.
    And so I found that two of my areas didn't have aligned 
Centers of Excellence, and I had several in bio of a wide 
variety, several in communications, command and control, and 
interoperability, and so we asked them to combine and align 
while establishing four new Centers of Excellence which were 
aligned and will be aligned. Now those broad agency 
announcements are out there. We look forward to the 
competition. In my model, I want to see universities aligned 
with national labs, because they bring so much to that, but on 
top of that, I am also aligning my fellowship and my 
scholarships, which were totally independent of the COEs. Here 
I have 82 universities and colleges who stepped up to the 
plate, who established curricula that was supportive of the 
mission needs of Homeland Security in their universities, and I 
was not aligning my fellowship and scholarships to those 
schools. That didn't make any sense to me.
    So what I have done now is, we are going to use, and I am 
not going to do it all, we will work with you, 60-40, 70-30. I 
don't know what the number will be, but I want to give those 
fellowships and scholarships to the COEs and associated had 
colleges and universities for them to invest in the students 
that are taking those courses. For the other students who go to 
other universities that I don't want to disenfranchise, we will 
go ahead and make sure they get fellowships and scholarships, 
as we did in Navy, but they must take Homeland Security related 
curricula.
    Now, in the area of minority-serving institutions, when I 
came on board I can tell you, and all you have to do is look at 
the universities who are associated with the COEs, they were 
significantly under represented. And when I met with the 
students, I wasn't seeing the face of America. And we have got 
to go to the best of the best. You are very familiar with what 
we did in Navy with the summer intern program which allowed 
students to come with a $3,000 to $5,000 stipend to the warfare 
center at Newport, Rhode Island, and Pax River and elsewhere on 
an annual basis. And we went to almost 70 universities all 
around the country.
    It is not surprising that the best of the best at 
University of Houston were Hispanic and the best of the best 
after Hampton University were African-American. So we had the 
face of America just by throwing out a broader net. This is 
critically important, and so one of the things I did in the 
2007 budget, with the help of the Hill and the OMB, was we set 
aside, and I think it was appropriate, $4 million focused on 
minority-serving institutions to kick start this new paradigm. 
And in the 2008 budget, that is $3.75 million.
    Now you asked why I had a 20 percent reduction. The reason 
was with the language on the Hill, with the lack of alignment 
of student programs and COEs to the output function of the 
Department of Homeland Security, Homeland Security leadership 
had also lost confidence in this program. And so I was fighting 
a two-front battle. Number one, I had to restore the confidence 
of the Congress in these important programs. And now as you 
know, sir, we have divided all of the COEs into a class system 
very similar to the Congress where every 2 years one-third will 
be up for a 6-year recompetition. And as I was required to and 
did brief the Appropriations Committees within 60 days after 
the passage of the fiscal year 2007 appropriations law, they 
will be able to recompete for one 6-year term, but then we have 
term-limited them to 12. And I was following the manufacturing 
technology model of 5 years, but 6 years was more appropriate 
for the universities.
    We will continue to fund--when we commit to that 6 years, 
we will fund at agreed-upon levels, assuming the appropriations 
from the Congress, to those levels for those COEs. But we now 
have strong minority-serving commitment that I am personally 
committed to do and in the broad agency a announcements that he 
we just put out we strongly encourage not only the 
participation but the leadership of MSIs as appropriate, 
whether it is on borders, explosives or in other areas.
    So I brought back, B-R-O-U-G-H-T, a lot of the money to get 
us to 80 percent of where we were previously, and I look 
forward based on the success of the program to continue to grow 
that part of my portfolio.
    Mr. Langevin. I recognize the ranking member, the gentlemen 
from Texas, Mr. McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I, too, share your concerns over the cut in funding for the 
Centers of Excellence, and Admiral, I know you agree with that. 
You submitted--had a budget that was higher. I have several 
universities in my district, one close by that isn't a Center 
of Excellence. I think it is a great symbiotic relationship 
with the Department.
    I think, given your realignment of fellowships and 
scholarships, your leadership, perhaps it will restore the 
confidence of the Congress and the administration so we can 
look at restoring that funding for you.
    Also to echo my colleague from California, the concern over 
cybersecurity, I think most people don't understand the grave 
threat that cyberspace can pose to not only this country but 
the world, far more than a single weapon of mass destruction. 
It could shut down this entire country.
    So I am glad to hear that you provide the leadership on 
that as well. In terms of the cybersecurity czar, I would 
continue to ask that you make that a priority under your watch. 
I understand that you do have a briefing that will be a closed 
door briefing for the members of this subcommittee, and I look 
forward to that briefing as well.
    The other members have touched on most of the topics. The 
other one I wanted to mention was interoperability. This comes 
up a lot for us when we go back home in our districts. Why, 
more than 5 years since September 11th, have we not been able 
to become interoperable? If you could answer that question, but 
also as it deals with technology, is this a technology issue, 
our problem, or is it a human turf problem or maybe both is my 
guess?
    Admiral?
    Mr. Cohen. Congressman, it is a combination, and I know 
because of your interest in this area that you are familiar 
with the scorecard that came out at Christmas, and because it 
is not an area that I was focused on, we are 20 years in the 
Department of Defense under Goldwater-Nichols, and we still 
have interoperability challenges. Some of those are technical, 
and some of those are cultural.
    But I just didn't appreciate the governance issues with the 
first responders. When I look at the scale issues that I have, 
I have to deal with the sheriff of Mayberry. And I have to deal 
with the New York City Police Department. And I have to deal 
with a volunteer fireman on a tribal reservation with a 1939 
LaFrance pumper, and I have to deal with the Chicago Fire 
Department. Those scale issues are significant.
    The technology is there. Today, if we wanted to buy it, we 
can buy digital programable radios, but I wouldn't begin to 
suggest either to the administration or to the Congress that we 
refurbish all of the 35,000 fire departments in this country, 
of which 80 percent are volunteer, or the more than 7,000,000 
uniformed policemen that we have. It would be a temporary fix.
    Today, if you can get on the internet, and some of you 
probably have voice-over IP. If you can get there by copper, by 
fiber, by radio frequency, by any means, it doesn't matter if 
you are Windows or Mac, we have interoperability. Where I am 
focused now is really in the RF. And Secretary Chertoff has 
committed that we will be interoperable in voice by the end of 
this administration, but we are also looking, and this is S&T, 
at data, which is bandwidth, and streaming video, which gives 
you the common operating picture. Today with iPod and V-Cast we 
have the technical capability.
    And so I am most focused on the disenfranchised user. This 
is the individual where we have to worry about the last mile. 
And it always comes down to the last mile. And whether it is 
the rural policemen or the Border Patrol, once we can get them, 
and it is generally by radio frequency, onto the Internet 
backbone by any means, which has vulnerabilities and cyber 
challenges, we are doing okay.
    The governance issue that I found and I think shining light 
on this will help enormously is we have some chiefs of police 
in their cities where the patrolmen and firemen have the 
ability to talk to one another technically, but the governance 
requires the police only to talk to police headquarters and the 
chief of police to the fire marshal, who then passes the 
information down to the firemen. That is not how you win wars, 
even wars against terror.
    So I think the score card will suffer as well, but it will 
be a balance of technology and governance. And we look forward 
to your leadership in this area to help.
    Mr. Langevin. The gentleman from North Carolina is 
recognized for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Admiral again, thank you. Talking about score cards and 
that last mile and the person out there at the end, let me ask 
a question on that for just a moment because I know that you 
have done much to reorganize as you pursue the S&T Directorate 
as you developed it to make it work better, I commend you for 
that and thank can you for it. I understand, as you put your 
new organization structure together, it is designed to serve 
those people in the organization that make use of the 
technologies and capabilities to use to protect the homeland. 
And I applaud your effort in that and thank you for it.
    But the first responders and others who use Homeland 
Security in the field, they also appreciate the effort for 
those they get, the efforts they get, because they really are 
the front line when it comes to protecting the homeland. I 
remind my colleagues, and I don't need to remind you because, 
you know, because if someone has a fire or emergency or 
something happens in their community, whether it be manmade or 
natural, and they dial 911, it normally does not ring up here; 
it rings in their hometown.
    So with that, let me ask you how are you are ensuring that 
the work is in fact aligned with local needs. In particular, I 
know that you are establishing integrated project teams that 
are making excellent progress in defining customer needs. 
However, in looking at the IPT membership, it looks like your 
customer base is Federal. There are no stakeholders outside the 
Department.
    So my question is three-fold: How are you involving State 
and local governments? And number two, do you have the ability 
to form an IPT with a non-governmental agency, such as a 
private sector owner of critical infrastructure? Thirdly, can 
you give me some examples of your IPT's, priorities and what 
gaps that are there that may need to be addressed or something 
we may need to help with?
    Mr. Cohen. Yes, sir. The short answer is I can form an IPT 
with just about anybody, and again, the enabling legislation, I 
think, was very, very wise. As you know, in my organizational 
construct, I do have a directorate for agency and foreign 
liaison. Initially, it was my intent to also have, as I 
discussed, association liaison, because I talked about the 
scale. It is much better for me to deal with fraternal order of 
police or fire prevention or firemen organizations, and they 
are well represented of course in the Congress. But what I 
found out in DHS was a common complaint from State and local as 
well as first responders--and first responders are our heroes; 
they are my customers--was that there were too many entry 
points. There were too many people trying to engage with them, 
and there was great confusion. And of course, the first 
responders are focused on providing the mission that they do, 
and this was part of overhead. And so I am satisfied now that I 
have gotten smarter on the construct of the Department of 
Homeland Security that we have the appropriate organizational 
people who come from that background, whether they are the 
Paulsens or the Forsemans or others who understand how to deal 
with State and local communities as well as associations, and 
so then while they are not formally identified in my IPT 
structure. I can deal with them and get to the first responders 
and the associations without causing this left hand, right hand 
problem.
    But that is not enough for me. We have to be able to 
empower the first responders. They have to have faith that the 
science and technology is there for them and not just the 
bureaucracy of Homeland Security. And so one of the things I 
did in Navy, because I had this same challenge, there my 
customer was the system commands that procure the items and 
maintain the weapons systems in ships but also the sailor and 
Marine. And we established a Web-based text solutions, that is 
what we called it, and made it available with 1 percent of my 
budget where they could come in on the web, and these kids are 
smart, and they know solutions. And they read Popular Science 
and Popular Mechanics, and they have been there, and they have 
college degrees, et cetera. And they would then come in and 
tell me the problems they had, offer solutions if they knew, I 
would then broker that to my warfare centers in Navy, we would 
stay in touch with that sailor, and we then would provide the 
solution.
    And the Chairman is familiar with one of these. We had a 
young kid from the Persian Gulf. It is very hot in the Persian 
Gulf in summer, 130 degrees. He is on an aircraft carrier, and 
he says, you know, 4.5 acres takes several hundred people to 
degrease the flight deck, and it is really dirty work, like 
holystoning the old sailing ships. He said, I am from Boston. 
And when I go to the Bruins, he said, after each period, they 
have got a Zamboni, and they resurface the ice. Why can't we 
have a degreasing Zamboni?
    I have got to tell you, this was right on the edge of S&T. 
And I justified it, not that we were developing a Zamboni. We 
weren't, but we had to treat the petrochemicals and not put 
them over the side. And so we spent a million dollars, and God 
bless, through our warfare centers and industry, we provided a 
degreasing Zamboni to that aircraft carrier. Now you can 
imagine this young sailor never had to buy another beer with 
that crew in his life.
    So that was an example. What I am telling you is, I have 
now established text solutions. We have the Web site for first 
responders. We are getting the word out. And I will do with my 
DOE labs, with national labs and my own labs the same thing for 
first responders that I did for the sailors, but that is not 
enough. You very wisely provided for a tech clearinghouse. Now, 
this, regrettably, was not fully enabled by my Directorate. I 
am very pleased that I understand that the tech clearing house 
has hired a very good person who knows how to do this from 
Sandia labs. I look forward to sitting down with this person. 
We are going to take the unspent moneys, which are 
considerable, and we are going to focus directly on the first 
responders.
    So we are going to take a two-faced approach, and I will be 
glad to get back to you on the details of those projects, but 
they will come from the first responders, not from me.
    Mr. Etheridge. Good. Thank you very much.
    Mr. Langevin. Finally, the gentleman from California, Mr. 
Lungren is recognized for 5 minutes.
    Mr. Lungren. I didn't know how we were going to get into 
Zambonis. A friend of mine is actually the nephew of Mr. 
Zamboni who owns the Paramount ice rink in Paramount, 
California who figured out somebody had to figure out how to do 
the resurfacing of the ice rather than doing it the old way. I 
am glad to see it also helped in the Navy.
    Admiral I see that you commanded the USS Hyman Rickover, 
and I notice that you graduated from Naval Academy the same 
time I graduated from Notre Dame. Did you ever undergo the 
famous Admiral Rickover interview?
    Mr. Cohen. Yes, sir, I did, and I would like to publicly 
acknowledge that, in the entire time I have been in the Navy, 
which was 1964 through 2006, Navy played Notre Dame every year, 
and we have yet to defeat you, sir.
    Mr. Lungren. I know.
    Mr. Cohen. So I congratulate you. But I did go through the 
interview.
    Mr. Lungren. My good friend, Admiral Tom Lynch, was the 
captain of the last team to beat Notre Dame.
    Mr. Cohen. 1963.
    Mr. Lungren. We don't forget those things. I am not an 
expert on this but I am starting to look at it, the 
configuration of the internet IPV4 versus IPV6. We are the ones 
who invented the Internet. We are stuck in the old protocols, 
so to speak. It is limited compared to the tremendous expansion 
of what I would just call very simply Internet Web sites, for 
want of a better term. It appears that is the nature of the 
future. It also gives us, because of its expanded volume, 
tremendous opportunity in the area of security and yet do you 
think that we have the emphasis in the Federal Government to 
move in that direction. And the reason I ask that is we have 
made a decision in the television industry to move to digital 
so that we can open up bandwidth. We as a Federal Government 
have made decisions that basically are going to result in the 
American people buying new televisions or having convertors 
because we thought that was important from a standpoint of 
opening up bandwidth and also product improvement to the 
public. But from my standpoint, this other issue is a far more 
serious issue in terms of potential security needs. And are we 
going to, in that new world, build in the kind of security we 
need against terrorist attacks on cyber security that we didn't 
when we first started with the Internet because, frankly, we 
weren't in that world? And what is your office doing to take 
this challenge seriously?
    Mr. Cohen. Congressman, I would like to thank you for your 
personal interest in this area. This is critically important, 
and there is always a balance between access and security and 
putting a damper on innovation by regulation, et cetera. This 
is the wild, wild west, and this curve hasn't even started bend 
over. In fact, I think it is accelerating, and it is exciting. 
And the same advantages that we have that enable the business, 
regrettably, give the terrorists access to do widespread harm, 
as you have indicated. I don't know if our government is 
organized for this new world and this new threat. And I am glad 
to work with the Congress and with the administration to help, 
and anyone else, industry of course. In the enabling 
legislation, you made me responsible for standards, standards 
Department-wide. We talked a little bit about interoperability, 
and I am having to balance IEEE versus ANCI versus NIST 
standards, and what you find is people are coming to me and 
saying, look, in some ways, standards are things of the past. 
With middle wear, it doesn't matter what standard. We can 
design a program that will give us the interoperability. So I 
have 6 pages from the IPT, from my cyber czar customer, many of 
which, Congressman Lungren, address exactly the issues you are 
talking about. And we were able to fund about half of these, 
and half I have budgeted in the out years because this fund, as 
you know, zero to 3 years, refreshes itself.
    I think this issue is much bigger than this particular 
hearing and might be best if we discussed this off line, and I 
am glad to do that, sir.
    Mr. Lungren. Thank you. Thank you, Mr. Chairman.
    Mr. Langevin. I want to thank the witnesses for very 
valuable testimony and the members for their questions.
    Admiral on a personal note, I am glad that my first hearing 
as chairman of this subcommittee was with you as our witness. 
Thank you for your testimony.
    The members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions. Hearing no further business, this 
committee stands adjourned.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]


            Appendix A:  Additional Questions and Responses

                              ----------                              


Questions From the Honorable James R. Langevin, Chairman, Subcommittee 
       on Emerging Threats, Cybersecurity, and Science Technology

Responses From the Honorable Jay M. Cohen, Under Secretary, Science and 
                               Technology

    Question 1.: Regarding cuts in funding, last year, Congressional 
appropriators expressed frustration with the Directorate's production 
by slashing the budget and withholding funds.\1\ An August 2006 article 
in the Washington Post said that the organization is ``hobbled by poor 
leadership, weak financial management and inadequate technology,' 
stating that S&T ``has struggled with turnover, reorganizations and 
raids on its budget.'' \2\ The President's budget included some 
reductions in the areas of University Programs (which includes the 
University Centers of Excellence) and the Infrastructure and 
Geophysical programs (including the Southeast Regional Research 
Initiative (SERRI) and the Community Based Critical Infrastructure 
Protection Institute).
---------------------------------------------------------------------------
    \1\ ``The Committee is extremely disappointed with the manner in 
which S&T is being managed within the Department of Homeland Security. 
Despite the efforts of the Acting head of S&T, this component is a 
rudderless ship without a clear way to get back on course.'' The 
Committee directs the Secretary to immediately develop a 5-year 
research plan, including performance measures, which reflect DHS's 
research and funding priorities, and brief the Committee no later than 
60 days after the date of enactment of this act. Developing and 
implementing this 5-year plan is the only way S&T will be successful.
    \2\ Washington Post, Aug. 20, 2006.
---------------------------------------------------------------------------
    Can you explain why these programs were singled out for such large 
cuts?
    Response: Program level increases and decreases in FY 2008 are a 
reflection of the transition or transfer of mature technologies to 
other DHS Components, the completion of programs, reduction of funding 
needs for construction and laboratory operations, and better alignment 
of some programs and leveraging of others.
    The Department will continue to balance research and development 
needs and funding resources so that the S&T Directorate's budget 
reflects the priorities of the Department. The development of new 
technologies and measuring the potential impact they have on our 
operations and acquisitions are more critical as we are committed to 
operate more efficiently and accomplish more with fewer resources.

    Question 2.: Regarding cybersecurity, the President's budget cuts 
cybersecurity R&D funding this year from its request of $22.7m last 
year.
    In light of all of the executive reports that have been released 
highlighting the importance of spending federal dollars on 
cybersecurity R&D, how can this Administration continue to justify its 
meager spending in the field?
    Cybersecurity research and development (R&D) has been and will 
continue to be a priority in the President's budget, the Department of 
Homeland Security and in the newly formed Command, Control and 
Interoperability Division within the S&T Directorate. The FY 2008 
cybersecurity R&D request is $14.88 million, a 32 percent increase over 
the FY 2007 enacted level. Based on the capability gaps that have been 
generated by the Department and other Federal agencies, the S&T 
Directorate in coordination with the DHS Assistant Secretary for Cyber 
Security and Communications has developed a focused budget that 
addresses the Nation's critical cybersecurity needs where the 
government can have the greatest impact.

    Question 3.: Regarding basic research, S&T seeks to balance risk, 
cost, impact, and time to delivery. Your goal for Basic Research 
investment is 20% of the budget. When we talked with your staff, they 
expressed how this particular area is difficult for the customer to 
envision the long term investment needed in basic research. How will 
you get your customers to understand the importance and support Basic 
Research investment?
    Response: The S&T Directorate is working closely with its customers 
to build an understanding of the importance of basic research. For 
example, the S&T Directorate, in its interactions with customers 
through a capstone Integrated Product Team (IPT) process, is providing 
guidance on which types of research are likely to produce results that 
will lead to technology development that will fill customer's needs. 
Basic research may be required when:
        <bullet> The S&T Directorate's Transition program may only be 
        able to fulfill a partial gap requirement and would require 
        basic research to develop a deeper understanding of the science 
        and technology needed to fulfill the entire gap; or
        <bullet> There may not be current or near term technical 
        solutions available to address identified future threats. A 
        basic research program would investigate science to provide the 
        fundamental understanding that could be used by scientist and 
        engineers to develop practical solutions.
    We are educating our customers about our capability to quickly tap 
into areas of basic research that can be exploited for homeland 
security solutions. The basic research program is attuned to new 
scientific developments in many communities through domestic and 
international technical exchanges, symposia, various publications and 
leverages science used to develop solutions and funds projects of 
specific interest to exploit collaborative and interdisciplinary 
relationships to solve fundamental issues to advance needed 
technologies.

    Question 4.: Regarding contracting officers, for FY 2006 funds, S&T 
had a $125m rescission because they were not committing and obligating 
funds in a timely manner. I understand that one of your top priorities 
is for S&T to become more efficient at executing their FY 2007 funds 
with a goal of 100% commitments by the end of May. It seems that you 
are making good progress and I commend you for that. S&T, and the 
Department in general, has historically had trouble getting money out 
the door due, in part, to limited numbers of DHS contracting officers 
available.
    Do you have an adequate number of DHS contracting officers assigned 
to S&T to execute in a timely manner?
    The DHS S&T Directorate and the Office of Procurement Operations 
(OPO) have agreed to a staffing plan that will serve all of the S&T 
Directorate's needs. OPO is currently hiring to fill that staffing 
plan.

    Question 5.: I understand that DHS Contracting Officers are 
detailed to various component agencies including S&T. The Contracting 
Officers are on-site to S&T, but their performance assessments do not 
include input by S&T. How can you effectively work with DHS contracting 
officers detailed to S&T if the process does not allow for S&T's input 
regarding their performance?
    Response: The DHS Office of Procurement Operations (OCO) personnel, 
assigned to DHS S&T, are collocated with the S&T organization; the S&T 
Directorate has provided working space for contracting offices at the 
Vermont Avenue location. This day-to-day working arrangement provides 
opportunity for the contracting officers to quickly gain familiarity 
with the S&T Directorate's mission and objectives and address issues as 
they arise--all within a team environment. The performance goals flow 
directly from the goals of Chief Procurement Officer to the Head of the 
Contracting Activity to the contracting specialists. S&T leadership 
does provide evaluation commentary and feedback on those collocated at 
Vermont Avenue. However, OPO believes that the evaluation of the 
quality of the work performed by contracting professionals is best 
performed by other contracting professionals because of the 
complexities involved in the work. The OPO branch chiefs, division 
directors and oversight team provide a significant portion of the input 
on the performance of the contracting professionals. Additionally, the 
contracting professionals are thoroughly trained and certified in 
accordance with the Department of Homeland Security Management 
Directives. Further, the OPO workforce management team monitors the 
contracting professionals' initial training as well as determines 
required skills currency training.

    Question 6.: Regarding integrated project teams, the Integrated 
Project Teams (IPT) established and currently ongoing are making 
excellent progress in defining customer needs. In looking at the IPT 
membership, your customer base is Federal; there are no stakeholders 
outside of the Department. I have questions about the following:
        How are you involving State and Local governments?
        Do you have the ability to form an IPT with a non-government 
        agency, such as private sector owners of critical 
        infrastructure?
        Can you give me some examples of your IPTs priorities and what 
        gaps they address?
        What parts of the customer's mission is the IPT priority 
        addressing?
        I know you have introduced the IPT concept to ensure customer 
        collaboration and buy-in.
        What is the formal agreement in an IPT? Do all members of the 
        IPT sign an MOU, for instance?

    Response: (1) The first phase of establishing Capstone Integrated 
Product Teams (IPTs) focused on developing and strengthening the 
relationship with Departmental component customers to ensure that the 
S&T Directorate focused on technology that would best support DHS 
components? strategic mission priorities. We know that the DHS 
components have long-standing relations with their appropriate State 
and local representatives and interest groups that already address the 
mission requirements and capability gaps in the IPT functional areas 
and therefore felt it was best at the beginning of the IPT process to 
have the Departmental Components choose how to address the priority 
needs of their customers.
    As the Capstone IPT process is maturing, the S&T Directorate is 
reaching out to the National Guard Association and other representative 
State and local groups to communicate technology requirements and 
priority mission capability gaps as identified by Departmental 
Components. The S&T Directorate has invited these groups to join the 
IPT process to ensure that the capability gaps of the end-user 
community are properly understood as well as ensure these organizations 
understand the process by which technology requirements are vetted and 
prioritized for science and technology investments. From a procurement 
integrity standpoint, some caution must be exercised about involvement 
of contractors in the requirements-setting phase of contracting. The 
IPT can and will obtain the best ideas of the private sector, but must 
be careful not to create a competitive advantage by involving only a 
few contractors in this process.
    First Responder and State and local governments can also make their 
technology requirements known to the S&T Directorate through the Tech 
Solutions program where their input on current capability gaps and 
technology requirements is received by the S&T Directorate via a 
website. We will pursue technology solutions directly through this 
approach, as well as bring forward these requirements to the 
appropriate Capstone IPT for inclusion in the Capstone IPT process.
    (2) At this stage, the S&T Directorate has not included private 
sector organizations in its formation of IPTs; however, when 
appropriate, input from the private sector is sought and incorporated 
into the IPT process. For example, the S&T Directorate's Infrastructure 
Protection Division brought into the Capstone IPT process the priority 
requirements generated with the 17 Sector-Specific Agencies, which 
represent the private sector's critical infrastructure priorities. 
These requirements were then addressed within the appropriate Capstone 
IPTs to ensure the private sector owners' priorities are known and 
considered.
    (3) Attached are representative technical priorities for each of 
the 11 Capstone IPTs and the mission capability gaps that these 
solutions will address. These priorities have been set by the component 
leads of the IPTs. (See attachment A)
    (4) The customer-led Capstone IPTs are addressing those parts of 
the mission space where customers believe that technology is a 
significant contribution and provides value to their operations. 
Attached is a list of focus areas that the IPTs addressed during their 
discussions. The Capstone IPTs are focused on identifying programs that 
will develop near-term (0--3 years) deliverables that improve mission 
capability. (See attachment B)
    (5) Charters will be executed for each Capstone IPT that will 
identify the representatives and mission areas under that IPT's 
authority. Technology Transition Agreements (TTAs) will be executed 
between the S&T Directorate and the project customer to formalize in 
detail the technologies to be transitioned to the customer. 
Additionally, the S&T Directorate is drafting a Management Directive 
for consideration by the Department that will codify this process.

    Question 7.: Regarding personnel problems within S&T, he recently 
released OPM (Office of Personnel Management) Survey ranked the 
Department at or near the bottom in four major personnel categories, 
including performance and job satisfaction. During the hearing, Under 
Secretary Cohen stated that that he will provide the Committee with a 
plan to improve morale, minimize turnover, strengthen workforce 
recruitment and secure institutional memory within the Directorate.
    When will that plan reach the Committee?
    Response: The S&T Directorate received the results from the Chief 
Human Capital office for the Office of Personnel Management Federal 
Human Capital Survey on January 30, 2007. We reviewed both the 
Departmental responses and the S&T Directorate's responses and were 
able to identify four findings that point to areas in the S&T 
Directorate that require improvement. Below you will find the plan 
which identifies the four findings, actions taken to improve 
dissatisfaction, and metrics for measuring our success.
    The first area cited is lack of respect for and honesty conveyed by 
senior leaders. To improve in this area of dissatisfaction, senior 
leadership has taken proactive measures to communicate the S&T 
Directorate's vision, mission, and path forward as well as provided 
feedback opportunities for all staff by:
        <bullet> Holding regular ``All Hands'' staff meetings every 
        four to six weeks (previous meetings have been held August 11, 
        September 12, October 20, December 19, and February 9);
        <bullet> Holding weekly ``Corporate Board'' meetings composed 
        of senior staff, which began on October 25, 2006;
        <bullet> Releasing S&T Snippets, a newsletter touting recent 
        S&T Directorate activities;
        <bullet> Published a ``Corporate Calendar'' in January 2007; 
        and
    We will measure our success using input received from these 
meetings, releases and publications, which, to date, have been very 
positive.
    The second finding is the lack of recognition for performance, to 
include promotions/raises/awards not based on merit. To improve in this 
area of dissatisfaction, we are providing training for all employees in 
performance management and leadership. We offered Performance 
Leadership Training, Goal Writing Training and Performance Training. 
The S&T Directorate's leadership team has also initiated the 
presentation of awards to employees at the ``All Hands'' meetings. To 
date, we have given five awards and will continue to acknowledge the 
special performance of employees at other ``All Hands'' meetings.
    The third finding is lack of sufficient personnel on board to get 
the job done. To improve on this problem, we are currently developing a 
staffing plan to address critical needs and gaps to fulfill our mission 
requirements. The S&T Directorate intends to measure the staffing plan 
through execution and will continue to evaluate and seek the needed 
resources for staff to do their jobs.
    The final area of concern is the lack of opportunity to improve 
skills. The S&T Directorate is committed to employee development and 
has launched an aggressive set of initiatives to develop learning 
opportunities for staff. We have implemented a training initiative that 
encourages and facilitates employee training. For example, the S&T 
Directorate encourages employees to participate in program management 
training opportunities such as the S&T's new Homeland Security 
Acquisition Course 101, which was piloted in November 2006, and offered 
again in March, and April, and slated for June. We had several other 
learning and development opportunities available to S&T Directorate 
employees, to include the Graduate Education Program, Senior Executive 
Service (SES) Development Program, Fellowships, and the SES Career 
Development Program. The S&T Directorate has approved 30 requests for 
employees to take job related training in fiscal year FY 2007. Finally, 
we are in the early stages of discussion concerning intern development 
opportunities and student hiring plans. We will measure the success of 
the training program by the number of employees who avail themselves of 
the training, obligation/expenditure rates, and program review results 
(cost, schedule, and capability); however it is too early to provide 
results at this time.
    In conclusion, we believe that the actions taken to date as well as 
future measures to improve the satisfaction level of staff will result 
in positive feedback and improvement over time. We expect that results 
from the next DHS survey, anticipated for September 2007, will show a 
marked improvement in the Directorate's survey scores.

    Question 8.: We believe it is important to have a Federal workforce 
within the Department, especially in a directorate like S&T where 
institutional knowledge is needed. Instead, we see an over-reliance on 
contractors with just a few Federal project managers. Are you committed 
to shifting from such a contractor-based operating picture to one that 
hires and grooms Federal workers? Are you actively recruiting younger 
members and not just proven program managers?
    Response: The S&T Directorate agrees that institutional knowledge 
is critical to meeting the mission of Directorate and DHS. The S&T 
Directorate initiated a realignment that is structured not only to 
develop a workforce with the skill sets to meet our mission, but also 
to provide a supportive structure to ensure a collaborative team 
focused environment.
    The S&T Directorate is allocated 383 (FY 2007)/ 381 (FY 2008) full-
time equivalents (FTE). Our goal is to reach the level either on hand 
or in the hiring pipeline by the end of the year. The S&T Directorate 
relies on contract support and the talent brought to the organization 
through detailees from other Federal agencies and those members through 
the Inter-Governmental Personnel Act. These various methods of bringing 
onboard the leading talent in the Nation to address new issues in areas 
of research, development, test and evaluation helps the S&T Directorate 
maintain a highly skilled, flexible and agile workforce. This mix of 
highly skilled talent is critical in creating a dynamic environment; 
one in which employees will thrive. To enhance the recruitment process 
the S&T Directorate developed Scholars (undergraduate) and Fellowship 
(graduate) programs aimed at students with backgrounds in the science 
and technology areas. In addition, the S&T Directorate is in the early 
discussion/planning stage to develop an internship program.

    Question 9.: Regarding personnel (ethics) issues at the S&T 
Directorate, this Committee is familiar with the December 2005 GAO 
report that described the significant problems with the way that S&T 
handles its IPA (Intergovernmental Personnel Act) employees. The IPA 
issue is important to resolve because IPAs are actually not employees 
of the Department of Homeland Security, but are essentially on loan to 
the federal government from universities or state/local government. The 
Department usually pays their salary. This is a great way to get much-
needed talent into the Department, and we are thankful for the hard 
work that many of the IPAs that are on your staff put in every day. 
Unfortunately, as the GAO pointed out, the Department does not have 
adequate ethics procedures to utilize their IPAs. In response to a 
query by Committee staff, DHS Legislative Affairs wrote on Oct. 12, 
2006, that ``S&T is working with the Chief Human Capital Officer and 
the Office of General Counsel on a guide that will provide the 
comprehensive information needed for the hiring of IPA detailees and 
administering their assignments.''
    Will you please provide the Committee with that guide?
    Response: Intergovernmental Personnel Act (IPA) employees are a 
critical component of the S&T Directorate's workforce and have been 
since the organizational was created. The Directorate is aware of the 
ethics issues that may occur in this talent sharing relationship 
between the Federal sector and universities/national laboratories/state 
and local entities. The S&T Directorate has developed and drafted 
several process documents and/or guides to assist managers and our 
partners in understanding the requirements involved in an IPA position. 
In developing these documents the S&T Directorate collaborated with the 
DHS Chief Human Capital Office (CHCO) and the Office of General Counsel 
(OGC) representatives matrixed to the S&T Directorate. In addition to 
the ethics program the guide addresses a broad range of administrative 
requirements including travel. The Directorate believes the best 
practices have been captured as they relate to the S&T Directorate's 
environment. The draft IPA policies and procedures were developed 
f7ollowing the Office of Personnel Management (OPM) guidance and by 
benchmarking best practices across the Federal agencies. The S&T 
Directorate analyzed and compared the IPA policies and procedures used 
by the Department of Energy, National Aeronautics and Space 
Administration, National Science Foundation, National Institutes of 
Health and the Office of Naval Research. These are the premiere users 
of Intergovernmental Personnel Act and have the most mature policies 
and procedures. Currently, the S&T Directorate is testing the adequacy 
of the draft guidance as we await the publishing of the DHS Management 
Directive on the IPA program. The S&T Directorate is pleased to share 
with you our draft guide with the understanding that revisions may 
result from further review. (See Attachment C) \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Homeland Security, `Intergovernmental 
Personnel Act (IPA) Program Reference Guide, April 30, 2007. 
[Maintained in the Committee file.]

    Question 10.: Interoperability depends on several factors, one of 
which is technology. Others have to do with governance and standard 
operating protocols. Last year you made technology recommendations on 
how to fix the problem. Can you explain what the technology solution 
you outlined and what needs to be done to finally fix this problem?
    Do you have any role in that process, or do you feel that you have 
now made your recommendation and it is up to others to implement?
    In the Fall of 2006, the Under Secretary Cohen testified before the 
House Homeland Security Subcommittee on Emergency Preparedness, 
Science, and Technology on the reorganization of the Department's 
Science and Technology (S&T) Directorate. In his testimony, Under 
Secretary Cohen discussed the establishment of technological standards 
for interoperable communication among emergency responders. 
Technological differences in equipment have become a major factor that 
cripples the ability of the Nation's emergency responders to 
communicate during a crisis.
    To combat this problem, the Office for Interoperability and 
Compatibility (OIC) within the S&T Directorate has been actively 
involved in Project 25 (P25) standards development, an initiative that 
will help produce voice communications equipment that is interoperable 
and compatible, regardless of manufacturer. OIC was established to 
serve as the office within the S&T Directorate to strengthen and 
integrate interoperability and compatibility efforts to improve 
Federal, State, local, and tribal emergency response preparedness and 
recovery. The P25 suite of interface standards is a major building 
block for achieving interoperable communications. P25 is part of a 
voluntary consensus standards development process led by the 
Telecommunications Industry Association (TIA). Over 20 interested 
parties (government and commercial entities) meet regularly to 
negotiate and document the P25 standards suite. While OIC promotes the 
acceleration, completion, and wide-spread adoption of P25 standards, 
neither OIC nor DHS has the authority to set standards.
    With support from Congress, the S&T Directorate's OIC has worked 
closely with the National Institute of Standards and Technology (NIST) 
to establish a clear vision and communicated key priorities for 
standards. As a result, industry has dramatically accelerated the 
development of key standards. OIC has helped develop initial standards 
for six of the eight major system interfaces associated with P25. All 
key component standards that comprise the P25 suite are nearing 
completion and work continues on test protocols to validate 
interoperability. Through the work of OIC and NIST, the P25 standards 
suite should be completed within the next 18--24 months.
    Since October 2005, OIC has also worked with NIST to develop a P25 
Compliance Assessment Program. This program will ensure that equipment 
from different manufacturers not only interoperates, but also meets 
minimal requirements for performance and conformance. In addition, the 
program will work with manufacturers so that their voice communications 
products supposed to comply with published P25 standards actually do. 
Finally the program will help ensure that Federal grant dollars are 
being used appropriately by State and local governments.
    Though the S&T Directorate's OIC has made significant progress 
toward standards development, the work is far from complete. As 
standards are developed and tested, OIC will continue to actively 
engage stakeholders and congressional leaders. With continued 
cooperation of industry, the emergency response community, and the 
Federal Government, interoperable P25 equipment will be available 
across the Nation.

    Question 11.: I have a question about the method by which the 
Department evaluates the performance of the programs within your 
Directorate. Every year, the Department provides the President and 
Congress with the Performance and Accountability Report, also known as 
the ``PAR,'' which is an audit conducted each year by KPMG designed to 
assess the effectiveness of the Department's mission performance and 
stewardship of resources. The goals and measurements used to write the 
2005 and 2006 reports are, by and large, weak and meaningless. Allow me 
to offer a few examples to explain what we mean. For example, the PAR 
looks at the Explosives Countermeasures portfolio, where the stated 
performance goal is to ``improve explosives countermeasures 
technologies and procedures to prevent attacks on critical 
infrastructure, key assets, and the public.'' That's a good goal. But 
the performance measure is to count ``the number of pilot programs that 
the Department has initiated.'' KPMG explained that the Explosives 
Countermeasures portfolio met their performance goal because they 
initiated 4 pilot programs. My point is that the number of pilot 
programs initiated, by itself, is not a significant measurement of how 
this program is performing. This measurement, coupled with follow-on 
measures or reporting on how these pilots have positively impacted 
running the program would make this reporting more meaningful. Here's 
another example from your Directorate. The SAFETY Act performance 
measure is to count ``the percentage of full applications that receive 
SAFETY Act coverage? The target in 2006 was 65%. Again, this 
measurement is meaningless. Who is to say that these applicants even 
merited SAFETY Act coverage? We want to judge the SAFETY Act Office by 
how many applications were filed, or how many applicants found the 
application process to be user-friendly, or how quickly the Department 
is able to turn around applications. So again we have an example of a 
meaningless performance measurement.
    I have the following questions:
        What efforts are underway at S&T to modify the way that some of 
        these programs are being assessed?
        Are you discussing ways to improve these assessments with KPMG?
        How can you evaluate performance over time if you have a 
        constantly changing baseline?
        Can you provide us with your future goals and where are these 
        documented or stated?
    Response: Performance measures are a key piece in our efforts to 
get the content right and to that the end the S&T Directorate has 
initiated a number of changes to ensure that programs are assessed in a 
more meaningful manner. For example, a set of basic cost, schedule and 
performance measures have been developed that will be used to assess 
the health and progress of programs and projects across the S&T 
Directorate. These measures are to be tracked in the S&T Plan Database, 
a new system used to manage, track and execute customer driven S&T 
Directorate investments.
    A more effective way to assess programs across the S&T Directorate 
is to measure how well they meet customer-driven milestones. Achieving 
milestones and delivering capabilities to our customers are key to the 
overall performance of the S&T Directorate. Therefore, the S&T 
Directorate has developed a consistent measure across each of the new 
budget lines that ties directly to the work and milestones identified 
in its comprehensive Execution Plan for FY 2007--2008. For example, 
Chemical and Biological Countermeasures has identified several 
milestones in the FY 2007--2008 Execution Plan such as:
        <bullet> Completing BioWatch (Gen 3) studies and working with 
        local BioWatch users to develop preliminary concepts of 
        operation (CONOPS) to better characterize and respond to 
        biological attacks.
        <bullet> Completing the Project BioShield material threat 
        determinations for all traditional bio-threat agents of 
        significant public health concern.
        <bullet> Initiating the prototypes of an integrated CB 
        detection systems--the system is targeted for use in subways, 
        high-profile office buildings, and for deployment at special 
        events.
    The S&T Directorate will measure how well it is meeting the program 
milestones and goal as identified in the document, and will provide 
this information to Congress in its performance-related documents such 
as the Future Years Homeland Security Program (FYHSP), Performance 
Budget Overview (PBO), and the Performance and Accountability Report 
(PAR). This information, coupled with specific programmatic measures, 
will enable a comprehensive assessment of how well the Directorate is 
executing its programs and meeting its customer's needs.
    To help ensure we meet customer needs, the S&T Directorate has 
established the Capstone Integrated Product Teams (IPTs) to identify 
our customers' needs and transition near-term capabilities for 
addressing those needs. The Capstone IPTs engage DHS customers, 
acquisition partners, S&T Directorate technical division heads, and 
end-users in our product research, development, transition and 
acquisition activities. This process, which began late in 2006, will 
provide a way to measure the success of the programs via the 
development of Technology Transition Agreements (TTAs). TTAs document 
the technologies to be transitioned to the customer, and commit the 
customer to funding to deployment of technologies that the S&T 
Directorate develops. The technologies available for transition either 
have to be accepted or meet user-defined criteria. This funding 
commitment by the customers will provide a clear indication of customer 
satisfaction with the products developed by the S&T Directorate.
    Finally, the S&T Directorate is currently outlining its business 
model, which addresses plans for program performance, in the Five-year 
Research and Development (R&D) plan required by the Department of 
Homeland Security (DHS) Appropriations Act, 2007 which will be 
delivered to Congress in early summer 2007. The S&T Directorate 
considers performance vital to the management of strong programs and 
will continue to review and evaluate performance throughout the year as 
well as during the S&T mid-year review. The S&T Directorate will also 
develop processes and measures for different levels and types of 
performance-related, data-based reviews of programs and projects. The 
S&T Directorate plans to work with KPMG through the Department's 
Program Analysis and Evaluation office to ensure that they are aware of 
the changes that are being implemented and seek input throughout the 
yearly assessment.

    Question 12.: Regarding the PART, I also have a question about the 
effectiveness of some of your S&T programs. You are no doubt familiar 
with the OMB's Program Assessment Rating Tool (PART), which was 
developed to assess and improve program performance so that the Federal 
government can achieve better results. Severak S&T programs have been 
rated by this tool, and the results have varied from ``Effective'' to 
``Results not Demonstrated.'' For example, the Biological Division has 
been rated ``Effective,'' while University Fellowships, Rapid 
Prototyping, and Emerging Threat Detection are all ``Moderately 
Effective.'' Threat and Vulnerability, Testing and Assessment received 
a ``Results not Demonstrated.'' In each report, an Improvement Plan is 
outlined.
    What is S&T doing now to address these areas, so they are all 
considered ``Effective''?
    Are Improvement Plan suggestions part of the measures within the 
Performance Accountability Report or other document?
    Response: The S&T Directorate is taking actions to address the 
scores and results of the Performance Assessment Rating Tool (PART). In 
addition to the improvements being made at the program level, the S&T 
Directorate is implementing several Directorate-wide initiatives to 
ensure that all of its programs are managed efficiently and 
effectively.
    To better address overall program management, the S&T Directorate 
has designed an information tool, the S&T Plan Database (PDB) that 
enables more efficient management of research and development (R&D) 
budget resources. The PDB is part of the S&T Directorate's ``one set of 
books'' and will be used to manage, track and execute customer- driven 
R&D investments. The S&T Directorate is also implementing program 
management training that will include modules on financial and budget 
processes. This will ensure that all program managers in the S&T 
Directorate are well trained for the management of their programs.
    To better address performance measures and the results, the S&T 
Directorate, through the PDB, will collect and report performance on 
schedule, cost, technical maturity and customer satisfaction. It will 
also report on how closely programs are adhering to their plans for 
milestones and deliverables. Progress on these detailed project-level 
milestones and deliverables will in turn be linked to higher level PART 
milestones and outcomes. The ultimate measure of effectiveness of our 
work will be how well we meet the needs of our customers.
    To help ensure we meet customer needs, the S&T Directorate has 
established the Capstone Integrated Product Teams (IPTs) to identify 
our customers' needs and enable and transition near-term capabilities 
for addressing those needs. The Capstone IPTs engage DHS customers, 
acquisition partners, S&T Directorate technical division heads, and end 
users in our product research, development, transition and acquisition 
activities. This process not only provides a clear customer, but will 
provide a way to measure the success of the programs via the 
development of Technology Transition Agreements (TTAs). TTAs formalize 
in detail the technologies to be transitioned to the customer, and 
commit to the customer to funding to deployment of technologies that 
the S&T Directorate develops. This funding commitment by the customers 
will provide clear indications of customer satisfaction with the 
products developed by the S&T Directorate.
    The following is a chart summarizing the scores and improvement 
actions that have been taken to ensure that these programs become 
stronger and managed efficiently and effectively. (Chart--Attachment` 
D)

    Question 13.: Regarding minority serving institutions, on an 
application for scholarship and fellowship programs for students there 
is a list for ``Fields of Study with Codes.''
    Is this list deemed an exhaustive list of Homeland Security-related 
curricula?
    If it is, why is foreign language not included?
    If it is not an exhaustive list, please provide us with a copy of 
such list.
    Response: For the current year, the list of Homeland Security-
related curricular is exhaustive, but the S&T Directorate will revisit 
the list for 2008. Specific to foreign language, since they are 
considered humanities they are outside the scope of the S&T 
Directorate's mandate. However, linguistics studies of the interaction 
of language and terrorism would fall within the accepted social science 
disciplines. Additionally, having a foreign language component of some 
disciplines, such as computer science-based textual analysis, would 
also fall within the scope.

    Question 14.: Admiral Cohen, you have indicated that you have 
significant interest in ensuring quality partnerships with minority-
serving institutions (``MSIs'') and Centers of Excellence (``COEs''). 
However, in addition to the overall twenty percent reduction to 
university programs, MSIs generally receive a very small portion of 
funding given to the various COEs (i.e. tens of thousands as compared 
to the hundreds of thousands).
    If MSIs are not given the funding to be ``quality partners,'' how 
do you expect MSIs to become stronger partners with less funding 
available?
    Response: The COE program has evolved since its establishment. The 
solicitations for the first COEs did not explicitly encourage MSI 
partners, nor did they include meaningful participation of MSIs as an 
evaluation criterion to ensure that the homeland security mission is 
bolstered by the diversity of viewpoints and research MSIs may offer. 
As a result, when the first consortia were formed, MSIs were not 
explicitly sought by lead institutions as partners. UP issued later 
solicitations which encouraged MSIs to compete and submit proposals 
with the result that the last two COEs both have MSI partnerships.
    All new and extended COEs are encouraged to have meaningful 
partnerships with MSIs and MSIs are encouraged to submit competitive 
proposals to lead new COEs. Demonstrated ability and commitment to 
establishing meaningful partnerships with MSIs is now an explicit 
criterion for evaluating new COE applications and awarding extensions. 
Of course, MSIs should also submit proposals to serve as lead 
institutions. The evaluation criteria for new COEs include the 
following language:
        Minority Serving Institution Partnerships: The demonstrated 
        ability and commitment to establish meaningful partnerships 
        with MSIs to develop a quality MSI research and training 
        program, and the quality of the proposed program. The 
        application should demonstrate the proposed COE's ability to 
        create a high-quality and enduring education and research 
        program capabilities at minority-serving institutions in 
        disciplinary areas important to homeland security. [NOTE: Lead 
        institutions seeking MSI partners and MSI researchers wanting 
        to participate in this COE should register their respective 
        needs and qualifications at: www.sciencetosecurity.org.
    Further, we encourage MSI's to submit proposals as lead 
organizations for our future COEs, and we will encourage all new COEs 
to have substantial partnerships with MSIs.

    Question 15.: For FY 2007, you implemented a targeted outreach plan 
to MSIs.
    Can you provide a copy of your current MSI outreach plan that 
includes your accomplishments?
    How has MSI participation increased since you began the outreach 
plan?
    Response: The Science and Technology (S&T) Directorate's Minority 
Serving Institutions (MSI) strategy is a flexible approach to develop 
new initiatives, retain those that work, and modify others based on 
feedback from MSIs. The MSI program has a number of components, 
described below, to increase MSI involvement in the S&T Directorate's 
activities.
    In 2005 and 2006, University Programs (UP), within the S&T 
Directorate, held a series of regional MSI workshops to introduce MSI 
opportunities and encourage MSIs to work with UP. In the summer of 
2005, as a result of these workshops, ten teams of faculty and students 
participated in the MSI Summer Research Team (SRT) program. This 
program provides opportunities for teams of MSI students and faculty to 
spend 10 to 12 weeks conducting a research project at a DHS Center of 
Excellence (COE) facility. Similarly, in 2006, six teams participated 
in a redesigned SRT program. Moreover, these outreach efforts 
contributed to the development of additional criteria for newer COEs. 
As a result, the most recent COE at John Hopkins University (JHU) had 
two MSI partners with significant roles included in the grant 
applications, compared with no proposed MSI partners at the first COEs, 
when such participation was not explicitly encouraged.
    In 2007, following establishment of a new MSI Program by Under 
Secretary Cohen, UP hosted three regional MSI workshops, which took 
place on February 4 in Baltimore targeting Historically Black Colleges 
and Universities (HBCUs), on February 21 at Broward Community College 
(Florida) targeting Hispanic Serving Institutions (HSIs), HBCUs and MSI 
community colleges and on February 28 at USC (California) targeting 
HSIs and tribal Colleges. At these workshops, DHS:

        <bullet> Introduced the MSIs to the new COE solicitations, 
        explained the opportunities those represent and encouraged the 
        MSIs to participate, including as lead institutions,
        <bullet> Explained the ideas and expectations for the new MSI 
        program that U/S Cohen initiated, and solicit the MSIs input. 
        Note: UP revamped the MSI Leadership Grant program 
        significantly in response to comments received from MSIs at 
        these workshops,
        <bullet> Described the 2007 Summer Research Team program,
        <bullet> Described DHS Scholarship and Fellowship Programs and 
        the DHS Postdoctoral Research Associateship Program, and
        <bullet> Invited the MSIs to a ten-day summer workshop on 
        teaching terrorism (SWOTT) specifically developed for MSIs. 
        Note: DHS is supporting the attendance of interested MSI 
        faculty to this workshop until capacity is reached.

    Other UP MSI Activities have included:
        <bullet> Participation in the White House Initiative on HSIs' 
        conference planning committee in Fall 2006;
        <bullet> Meeting with Hispanic Association of Colleges and 
        Universities and HBCUs at their annual meetings and at UP's 
        requests on ways to disseminate information, engage HSIs and 
        HBCUs, and present at their major conferences;
        <bullet> Participation in a workshop for Native Americans on 
        the risk of terrorism for Casinos;
        <bullet> Meeting with a number of other Federal agencies on 
        ways to collaborate and leverage MSI resources;
        <bullet> Collaboration with the White House Initiatives on 
        HBCUs and TCUs on ways to disseminate information and provide 
        speaking opportunities at their key venues; and
        <bullet> Reaching out to MSIs to encourage MSI students to 
        apply for DHS Scholarships and Fellowships.

    Question 16.: Regarding ``Get Backs'' from the hearing, please 
provide the Committee with dates for the release of the following items 
that the Under Secretary pledged to provide the Committee:
    Science and Technology strategic plan (required by Homeland 
Security Act)
    Copy of Science and Technology Organization Regulation Manual 
(STORM)
    Date for National Homeland Security R&D plan (required by Homeland 
Security Act)
    IPA Directive (the Under Secretary mentioned that this might come 
in a Management Directive, though in the meantime he would provide the 
Committee with the language he used while at the Office of Naval 
Research)
    Response: The Science and Technology's (S&T's) 5 year R&D Plan 
required within 180 days of enactment of the FY 2007 Homeland Security 
Appropriations Act is in development. The S&T Directorate received a 
two month extension from the Senate Committee on Appropriations. The 
report is scheduled to be delivered in June 2007.
    The Science and Technology Organization Regulation Manual (STORM) 
is available. A copy has been provided to your staff.
    The National Homeland Security Research and Development plan will 
be available in June of 2007.
    Intergovernmental Personnel Act (IPA) employees are a critical 
component of the S&T Directorate's workforce and have been since the 
organizational was created. The Directorate is aware of the ethics 
issues that may occur in this talent sharing relationship between the 
Federal sector and universities/national laboratories/state and local 
entities. The S&T Directorate has developed and drafted several process 
documents and/or guides to assist managers and our partners in 
understanding the requirements involved in an IPA position. In 
developing these documents the S&T Directorate collaborated with the 
DHS Chief Human Capital Office (CHCO) and the Office of General Council 
(OGC) representatives matrixed to the S&T Directorate. In addition to 
the ethics program the guide addresses a broad range of administrative 
requirements including travel. The Directorate believes the best 
practices have been captured as they relate to the S&T Directorate's 
environment. The draft IPA policies and procedures were developed 
following the Office of Personnel Management (OPM) guidance and by 
benchmarking best practices across the Federal agencies. The S&T 
Directorate analyzed and compared the IPA policies and procedures used 
by the Department of Energy, National Aeronautics and Space 
Administration, National Science Foundation, National Institutes of 
Health and the Office of Naval Research. These are the premiere users 
of Intergovernmental Personnel Act and have the most mature policies 
and procedures. Currently, the S&T Directorate is testing the adequacy 
of the draft guidance as we await the publishing of the DHS Management 
Directive on the IPA program. A copy of this draft guide has been 
provided to your staff.

      Questions From the Honorable Michael McCaul, Ranking Member 
   Subcommittee on Emerging Threats, Cybersecurity, and Science and 
                               Technology

Responses From the Honorable Jay M. Cohen, Under Secretary, Science and 
                               Technology

    Question 17.: Is biometrics a part of the Science and Technology 
Directorate's Human Factors Division or Border Division? What is the 
relationship between the Human Factors Division and Border Division in 
pursuing biometric and credentialing technologies? What percentage of 
the S&T budget in FY 2008 covers biometrics and credentialing 
projects--it appears to be only a small fraction of the budget.
    Response: Biometrics and credentialing projects in the S&T 
Directorate are managed by the Human Factors Division, with the 
exception of programs dealing with development of standards in the area 
of biometrics and credentialing, which are managed by the Test & 
Evaluations and Standards Division.
    The Human Factors Division coordinates activities with all of the 
divisions and offices in the S&T Directorate including the Borders and 
Maritime Division as well as interagency coordination bodies in DHS 
such as the DHS Biometrics Coordination Group and the People Screening 
CAPSTONE IPT and government-wide NSTC Subcommittee on Biometrics. One 
example activity is the partnership with the Coast Guard's Mona Pass 
Project to pilot the use of at-sea mobile biometrics in an operational 
setting. Information gathered from this pilot will be used to inform 
the S&T Directorate's transitional mobile biometrics work beginning in 
FY 2009 so that the S&T Directorate can ensure future mobile biometrics 
devices meet not only the Coast Guard's operational needs, but the 
needs of other DHS users as well.
    For FY 2008, $6.5 million or 1 percent of the President's Budget 
Request for the S&T Directorate's Research, Development, Acquisition 
and Operations budget is dedicated to biometrics and credentialing 
activities.

    Question 18.: The FY 2008 budget request for the Centers of 
Excellence has decreased by $9.9 million (20%), yet a recent BAA called 
for 4 new Centers of Excellence this year. Does this mean that some of 
the existing Centers will receive less money or have their funding 
terminated when their contract is up for renewal?
    Response: The existing Centers of Excellence (COE's) will not 
receive any less money during their current period of performance. As 
they are being extended, each Center is informed of its available 
budget and develops a workplan for the extension period accordingly. To 
date, each Center has voluntarily opted for an extension at the level 
of funding available from the S&T Directorate. In some cases, that 
amount will be less than they received annually for their initial 3-
year period of performance, based on current budgets. However, the COEs 
planned from the outset for an initial period of performance of three 
years. As a result, many of the projects that the COEs supported in the 
initial period are being completed within that period and do not 
require further funding. Moreover, the COEs have become successful at 
leveraging other sources of funding by using their positions as COEs 
and funds from the S&T Directorate. We anticipate that the existing 
COEs will re-compete to continue as Centers as their first terms end.

    Question 19.: The Centers of Excellence are a vital part of the S&T 
program, with leading experts providing the genesis of ideas for the 
next generation of homeland security technologies. These Centers focus 
on basic, long-term research which can take on the order of 8 years, 
yet these Centers must re-compete for funding every 2 to 3 years. How 
does S&T reconcile the difference in timeframes? Specifically, how will 
S&T judge performance and progress of basic research after just a 
couple of years? Will this deter some Universities from applying to 
become Centers because funding is not guaranteed from start to 
completion of research projects?
    Response: Initially, the period of performance for the five 
original Centers of Excellence (COEs) was three years, with the 
possibility of an extension depending on performance and the 
availability of funds. Three of these COEs have already been reviewed 
for performance and extended for either two or three years, for total 
periods of performance of five to six years, which is commensurate with 
Centers supported by other federal agencies.
    With the S&T realignment initiated by Under Secretary Cohen, all of 
the COEs ultimately are moving to a six year period of performance, 
with the potential for re-competing for a COE in the same topic area 
one additional time. That is, the existing Centers will be eligible for 
a total tenure of 11 or 12 years, if they are successful in winning a 
re-competed COE grant. The new COEs being initiated in FY 2007 and 
beyond have initial periods of performance of four to six years, with 
the possibility of winning a six-year re-competition once for a total 
period of performance of 10 to 12 years. The initial periods vary in 
order to get all nine planned COEs on a schedule of one-third of the 
centers re-competed or competed every two years. This enables the S&T 
Directorate to spread the administrative workload and provides for 
continuity within the community (network) of Centers.
    Regarding judgment of performance, the S&T Directorate conducts 
reviews of the Centers on their second anniversary to ensure they are 
on track, focusing on the right research and well-managed. We use both 
academic subject matter experts and the potential end users of research 
products for these reviews. The results of these reviews provide 
direction for course corrections, if necessary. The S&T Directorate 
plans to continue conducting these reviews periodically to fulfill its 
oversight responsibilities. We do not anticipate that periodic reviews 
will deter universities from applying; so far, the academic response to 
past solicitations has been strong even with the initial 3-year 
performance period and prospect of reviews after the second year.

    Question 20.: What criteria does S&T use for selecting Centers of 
Excellence?
    Response: The S&T Directorate uses the following criteria to 
evaluate full proposal submissions for a Center of Excellence (COE). 
The first six criteria (a--f) are critical elements of the proposal and 
of equal significance. Proposals that do not provide satisfactory 
responses to all of these essential criteria will be declined. The 
remaining criteria (g--k) also are important to meeting the S&T 
Directorate's overall objectives and, while they are listed in 
approximate descending order of importance, each should be fully 
addressed by applicants.
        a. Technical Merit and Quality: the degree to which the 
        proposed research focus will achieve excellence (to offer 
        results capable of commanding the respect of active researchers 
        and of probing a frontier area well). The originality and 
        creativity of the proposed research questions and the 
        appropriateness and adequacy of the proposed research methods. 
        For example, the following questions may be considered during 
        the evaluation: Is the research approach practical and 
        technically defensible, and can the projects be performed 
        within the proposed time period? Will the research contribute 
        to scientific knowledge in the topic area? Will the results be 
        disseminated broadly to enhance scientific and technological 
        understanding? What are potential benefits of the proposed 
        research to society? Is the proposal well-prepared with 
        supportive information that is self-explanatory or 
        understandable?
        b. Mission-Related Significance: the degree to which the 
        proposed research focus can yield results that overcome 
        existing and difficult technical limitations, or that offer the 
        scientific basis to enable major technological advances in the 
        foreseeable future. The responsiveness of the proposal to the 
        research needs identified in this announcement and the 
        willingness and ability of the applicants to consult with 
        Federal, state, local and private stakeholders to refine 
        research questions and design to make results applicable to 
        homeland security issues or policy. For example, the following 
        questions may be considered during the evaluation: Does the 
        proposal adequately address the objectives specified by the S&T 
        Directorate for this topic area? Can the applicants communicate 
        their results in formats accessible to and understandable by 
        Federal, state and local end users?
        c. Geographical distribution of all Centers of Excellence and 
        major partners. The Centers of Excellence program's authorizing 
        legislation states: ``. . .the Under Secretary for Science and 
        Technology, shall operate extramural research, development, 
        demonstration, testing and evaluation programs so as to ensure 
        that colleges, universities, private research institutes and 
        companies from as many regions of the United States as 
        practicable participate.'' Geographical location of the lead 
        institution and its major partners will be a factor in 
        evaluating proposals submitted in response to this COE.
        d. Qualifications of Investigators: The qualifications of the 
        principal investigator(s) and other key personnel, including 
        training, demonstrated knowledge of pertinent literature, 
        experience, and publication records, and the extent to which 
        key personnel will make a significant time commitment to the 
        project.
        e. Facilities and Equipment: The availability and/or adequacy 
        of the facilities and equipment proposed for the project. For 
        example, the following questions may be considered during the 
        evaluation: Are there any deficiencies that may interfere with 
        the successful completion of the research?
        f. Management: The ability of the lead institution to manage a 
        complex Center of Excellence in terms of achieving research 
        results when due, managing large and complex budgets and 
        communicating research outcomes, and the adequacy of the 
        proposed management plan to ensure quality research and 
        education programs from researchers at both primary and partner 
        institutions. Note: Applicants are advised to designate a 
        qualified, full-time Center Director with the ability to manage 
        a large results-oriented research program.
        g. Knowledge of Current Research: Evidence that the applicant 
        is familiar with the research and resources of existing DHS 
        COEs, other DHS S&T, federal agency or National Laboratory 
        research and development programs, and other relevant 
        university programs and can demonstrate its ability to take 
        advantage of these resources. Information about the existing 
        COEs is available at www.sciencetosecurity.org. S&T programs 
        are described in general terms at http://www.dhs.gov/xres/
        programs/.
        h. Education: The adequacy of education plans and supporting 
        materials demonstrating the proposed COE's ability to establish 
        an enduring and comprehensive program of study in disciplines 
        related to the specific research areas cited in this 
        announcement. This plan should demonstrate how it will 
        contribute to the development of new generation of scientists 
        and professionals working in homeland security fields, as well 
        as developing continuing education for current professionals.
        i. Minority Serving Institution Partnerships: The demonstrated 
        ability and commitment to establish meaningful partnerships 
        with MSIs to develop a quality MSI research and training 
        program, and the quality of the proposed program. The 
        application should demonstrate the proposed COE's ability to 
        create a high-quality and enduring education and research 
        program capabilities at minority-serving institutions in 
        disciplinary areas important to homeland security. [NOTE: Lead 
        institutions seeking MSI partners and MSI researchers wanting 
        to participate in this COE should register their respective 
        needs and qualifications at: www.sciencetosecurity.org.]
        j. Results Transition: The effectiveness and soundness of a 
        strategy to transition research results to end users and 
        mechanisms to accomplish this transition, and demonstration of 
        a clear and effective plan for transitioning research results 
        for each project or research area ultimately to homeland 
        security mission agencies.
        k. Budget: Although budget information does not reflect on the 
        application's scientific merit, the evaluation will include the 
        appropriateness and/or adequacy of the proposed budget and its 
        implications for the potential success of the proposed 
        research. Input on requested equipment is of particular 
        interest.

    Question 21.: Is the ultimate goal to have only one Center 
supporting each S&T Division? What happens, for example, if there are 
unique research areas within a Division and one Center doesn't have the 
needed expertise to cover the basic research needs to support each 
distinct mission? For example, within the Chemical and Biological 
Division, elements of chemical defense are distinct from biodefense 
which are distinct from food and agriculture security. How will you 
base decisions on how many Centers are needed to support a single 
Division's mission?
    Response: The S&T Directorate's ultimate goal is to create as many 
Centers of Excellence as the S&T Directorate and its customers believe 
are needed to develop the fundamental science essential to improve or 
extend homeland security. There are currently nine Centers planned for 
the foreseeable future, but as requirements are refined and resources 
allow, more may be planned. Every Center will be aligned with the 
mission and activities of one or more S&T Divisions, with no less than 
one per division.

    Question 22. The funding request in FY 2008 for laboratory 
facilities has decreased by $16.8 million. However, the Committee 
understands that because of delays in the National Bio and Agro-Defense 
Facility (NBAF) site selection process (which has delayed the 
establishment of the NBAF until 2014) and the limited space at Plum 
Island Animal disease Center, S&T plans to increase capacity at Plum 
Island to provide interim animal and zoonotic disease research 
capabilities. Since the fundingd does not apprear to be accounted for 
in your FY08 budget, where will this funding come from?
    Response: The President's budget request for fiscal year 2008 
includes $17 million for upgrades to the Plum Island Animal Disease 
Center (PIADC). The laboratory facilities reduction in FY 2008 is not a 
cut to the program; it simply reflects the funding needs for that year. 
We are requesting lower funding levels for PIADC upgrades as we are 
nearing completion of the corrective actions as well as less funding 
for the NBAF project in FY 2008 than in FY 2007 as we are completing 
the preliminary phases of the project. The corrective actions and 
upgrades at PIADC will allow the use of the facility through the 
transition to NBAF. The operational funding for all of our laboratories 
is intact and our plans for FY 2008 accommodate all of our needs for 
laboratory facilities operations including PIADC. Future funding for 
operational cost increases associated with increased work load will 
appear in the Future Years Homeland Security Program (FYHSP) and the 
appropriate year's budget request.

    Question 23. Please explain the decrease in the Infrastructure/
Geophysical Division's budget request for FY 2008. The Committee 
understands that this reduction is the result of the elimination of a 
number of programs including the Southeast Regional research Initiative 
(SERRI) and the Community Based Criticval Infrastructure Protection 
Institute and reduction of other programs such as the Regional 
Technology Integration Intitiative (RTII). Please explain why these 
programs were eliminated and what the impact will be?
    Reponse: The Southeast Regional Research Initiative (SERRI) and the 
Community Based Critical Infrastructure Protection Institute each have 
un-obligated funds remaining from prior fiscal years appropriations. 
Both entities have periods of performance that extend into fiscal year 
2008 that will use these un-obligated balances to continue their 
projects. Both entities were expected to expire once all currently 
appropriated funds have been obligated, however work that might be 
assigned to SERRI in the future will most likely be assigned to one or 
more of the newly formed University Centers of Excellence, as posted in 
recent Broad Agency Announcements. S&T will stretch the funds requested 
in fiscal year 2008 for to the Regional Technology Integration 
Initiative by deferring some projects and scaling down others.

    Question 24. The Committee understands that there is a new focus on 
leap ahead, innovative technologies through your HITS and HIPS. DARPA 
was set up to do something similar and to keep fresh ideas coming, they 
rotate program managers every 3 years or so. Does S&T anticipate doing 
the same, when the Directorate has experienced difficulty retaining 
personnel? How will S&T balance the need for continuity versus the need 
for fresh ideas?
    Response: We do not intend to use the Defense Advanced Research 
Projects Agency (DARPA) program manager rotation model. The Director of 
Innovation of Homeland Security Advanced Research Projects Agency 
(HSARPA) has projects that will range from 1 to 5 years. When a project 
is complete, the S&T Directorate will have the opportunity to move a 
program manager into a new project. HSARPA's projects come from DHS 
leadership, from DHS component customers, and from creative unsolicited 
ideas from industry and laboratories. Starting in FY 2009, the Director 
of Innovation anticipates about a 33 percent refresh of projects every 
year. We expect to retain program managers longer.

    Question 25. Within the FY 2007 budget, out of the $20 million that 
was designated for Cybersecurity, over $7.5 million or 38% was 
directred towards ``Innovation''. This percentage is by far the highest 
of any of the program areas. Over a third of funding for Cybersecurity 
was directed towards Innovation and yet there does not seem to be any 
projects within the Innovation office focused on cybersecurity. Please 
explain this discrepancy.
    Response: The Under Secretary's priorities for the S&T Directorate 
include producing technologies to increase the security of our Nation's 
Business Sector. During the realignment of its FY 2007 Budget, the S&T 
Directorate conducted an in-depth review of all programs and their 
alignment to the Department and its priorities to identify those 
programs that lacked clear deliverables and Departmental customers. 
Those efforts were cut to fund accelerated and high impact programs in 
the Innovation Division that address key gaps identified by DHS 
leadership. One of those projects is a Resilient Electric Grid that 
will provide a more robust and flexible infrastructure for the 
transmission of power. This project directly impacts the cyber 
infrastructure and allows for more resilient operation during a natural 
or man-made disaster. The remaining Cyber Security programs address the 
highest priority areas where the Federal Government can have the 
greatest impact.

    Question 26.: Does the S&T Directorate have any projects focused on 
moving the U.S. Government toward the utilization of Internet Protocol 
version 6 (IPv6)?
    Response: The S&T Directorate does not have projects directly 
focused on moving the Federal Government toward the utilization of 
Internet Protocol version 6 (IPv6) although the Department is 
implementing IPv6 as part of the Administration's effort to transition 
to IPv6 by June of 2008. The S&T Directorate is exploring the impact of 
IPv6 on new solutions for domain name system (DNS) security and routing 
security, which the President's National Strategy to Secure Cyberspace 
calls out as critical Internet infrastructure components with 
vulnerabilities that need to be addressed. The S&T Directorate has 
projects focused on moving the Federal Government toward deployment of 
solutions for these areas, which each interact with IPv6. In these 
activities, the S&T Directorate is working with the Department of 
Commerce and the National Institute of Standards and Technology (NIST), 
which are the lead agencies charged with the deployment of IPv6. The 
S&T Directorate is also working with the Department of Defense (DoD) as 
they deploy IPv6.

    Question 27.: What tradeoff analysis was conducted to determine 
that the proposed HITS/HIPS are more of a priority than projects/
programs currently below the funding cut line for FY 2008 and beyond? 
Is there a separate Integrated Products Team (IPT) process for HITS/
HIPS versus the individual Division IPT process and if so, which 
Department components are the lead considering the HITS and HIPS span 
mutiple Division mission area?
    Response: The initial (current) set of HIPS and HITS projects were 
selected in early FY 2007, prior to the initial meeting of the S&T 
Directorate's Capstone Integrated Product Teams (IPTs). They were 
selected as a result of the Undersecretary for Science and Technology's 
interaction with Department leadership. The Undersecretary was able to 
identify the priority gaps in capability as described by leadership and 
those gaps became the initial HIPS and HITS. The list of HIPS and HITS 
projects has been extremely well received by our customers and has 
generated tremendous interest among industry.
    New HIPS and HITS will be selected from various inputs including 
the IPT process, unsolicited input from industry and laboratories, and 
from teaming opportunities with other agencies. The S&T Directorate's 
Corporate Board will review all potential candidates for HIPS and HITS 
categories and make final program decisions.

    Question 28.: How are the actual end-users, such as the first 
responders and infrastructure providers (as opposed to DHS customers) 
engaged in the Integrated Products Team (IPS) process? How are end-
user's capability needs included in the requirement setting process?
    Response: End-users are included at the discretion of the IPT 
leads. The Infrastructure Protection (IP) and Incident Management (IM) 
Integrated Product Teams (IPTs) provide two examples of how end users 
were brought into the initial Capstone Integrated Product Team (IPT) 
process. The Infrastructure Protection (IP) and Incident Management 
(IM) Integrated Product Teams (IPTs) used robust and established 
processes for engaging and eliciting requirements from end-users, such 
as First Responders, infrastructure providers and industry owner/
operators. Within the IPT construct, the Preparedness Directorate in 
the IP IPT and the Federal Emergency Management Agency (FEMA) in the IM 
IPT, representing their respective customers, are charged with 
collecting, vetting and prioritizing user requirements.
    The input to the IP IPT is developed in coordination with the 
Sector Specific Agencies (SSAs) who, in partnership with the Sector 
Coordinating Councils (SCCs) and Government Coordinating Councils 
(GCCs), determine sector-specific priorities and requirements for 
Critical Infrastructure and Key Resource (CI/KR) protection. The SSAs 
submit their priorities and requirements to DHS in their sector annual 
reports which inform the National Critical Infrastructure Protection 
(NCIP) Research and Development (R&D) Plan and its technology roadmap.
    The input to the IM IPT is developed from the results of Project 
Responder, input from responder communities through workshops, outreach 
venues such as conferences and symposiums, coordination with the 
Technical Support Working Group (TSWG) and the Inter-Agency Board, 
requests generated through the Grants and Training process, and the 
Regional Technology Initiative (RTI) Program which directly gathers 
requirements from responders in several representative urban areas.
    As the Capstone IPT process is maturing, the S&T Directorate is 
reaching out to other representative groups to join the IPT process to 
ensure that the capability gaps of the end-user community are properly 
understood as well as ensure these organizations understand the process 
by which technology requirements are vetted and prioritized for science 
and technology investments.
    First responders and State and local governments can also make 
their technology requirements known to the S&T Directorate through the 
Tech Solutions program where their input on current capability gaps and 
technology requirements is received by the S&T Directorate via a 
website. We will pursue technology solutions directly through this 
approach, as well as bring forward these requirements to the 
appropriate Capstone IPT for inclusion in the Capstone IPT process.

  Questions from the Honorable Marsha Blackburn, a Representative in 
                 Congress From the State of Mississippi

Responses from the Honorable Jay M. Cohen, Under Secretary, Science and 
                               Technology

    Question 29. There was a recent GAO report on the failure of 
technology to screen airport passengers for weapons and bombs (GAO-07-
448T). Please describe the reasons for this failure and discuss what 
S&T is doing to address the need for explosive detection technologies, 
and liquid detection technologies in particular.
    Response: Detecting weapons and explosives within the 
transportation systems of the United States requires a process that not 
only includes a reliance on technology, but also on intelligence and 
surveillance activities, passenger pre-screening, pat-down searches of 
individuals, and physical searches of property. This layered, 
multidimensional approach to transportation security and passenger 
screening drives our efforts to improve security. As the GAO report 
``AVIATION SECURITY: Progress Made in Systematic Planning to Guide Key 
Investment Decisions, but More Work Remains'' (GAO-07-448T) indicates, 
more can be done procedurally and with technology. The S&T Directorate 
is working with the Transportation Security Administration on several 
efforts to improve detection of weapons and explosives at airport 
checkpoints. Those efforts include:
        <bullet> Improving the reliability and detection capability of 
        two explosive trace portal (ETP) configurations;
        <bullet> Evaluating two new sets of technologies, one based on 
        back scatter X-ray and one based on millimeter wave technology 
        with a much higher possibility of weapons detection hidden on 
        the body as well as explosives;
        <bullet> A multi airport testing of a liquid explosives 
        detection device;
        <bullet> Advanced Technology X-ray units to detect liquid 
        threats in carry-on luggage;
        <bullet> Hostile Intent Detection methods and systems; and
        <bullet> Automated checkpoint explosives detection systems 
        (Auto EDS) program.
    These efforts support the existing risk-based, layered approach to 
transportation security. The S&T Directorate goal is to improve 
existing technologies and develop new technologies, while working with 
TSA and vendors to increase detection capabilities and throughput, 
while reducing costs, down-time, and false alarms.

    Question 30.: There was a recent failure of a pilot program focused 
on detection of explosives for rail passengers and systems. Please 
discuss S&T plans to develop effective detection technologies aimed at 
rail systems?
    Response: The Rail Pilot Program was a series of studies to 
determine if off-the-shelf equipment and prototype stand-off imaging 
technologies would work in passenger rail systems. During the pilot, we 
tested and evaluated numerous technologies. Although we did not adopt 
or endorse any of the technologies as ``ready for deployment,'' we 
gained valuable information that indicated which technologies will not 
work and which technologies have potential to work in rail transit 
systems.
    The S&T Directorate has several ongoing stand-off detection 
technology evaluation projects that could be used within rail and other 
transportation systems to screen passengers. These could also be 
applied to a follow-on pilot program should one be directed. Examples 
of projects that could be used include the development of:
        <bullet> A spectroscopic and trace detection technologies (IR, 
        Fluorescence-based, etc.) for standoff or remote suicide bomber 
        detection;
        <bullet> Explosives screening stations which can be rapidly 
        deployed and remotely operated; and
        <bullet> An accurate, near-real-time, contactless, biometrics-
        based, card-and-reader system.
    Further, in order to develop a system that could aid in the 
standoff detection of concealed explosives on persons, a series of 
field demonstrations will be held in conjunction with the Secret 
Service, the FBI, other Federal, State, and local law enforcement and 
first responder agencies.
    Question 31.: Please address what type of spectrum analyses and 
jamming frequency technology S&T is developing to detect IEDs and the 
new IED systems being found in Iraq?
    Response: In collaboration with the Technical Support Working Group 
(TSWG) and the Federal Bureau of Investigation, the S&T Directorate 
funded the Remote Control IED Electronic Counter Measures National 
Capability (frequency jamming) effort in FY 2005 and FY 2006. Program 
plans include additional funding for this effort in future years.
    The new IEDs that have been written about recently in the press 
typically refer to sophisticated insurgent attacks on armored U.S. 
military vehicles using home-made anti-tank weapons with ``shaped'' 
explosive charges. Other-wise known as EFPs (Explosively Formed 
Penetrators), these devices are primarily used to defeat armored 
vehicles traveling in convoy. Currently, the S&T Directorate does not 
have a development effort to counter the road-side bomb threat because 
our customers do not perceive this to be a priority threat within the 
continental United States relative to other threats.


                        Appendix B:  Attachments

                              ----------                              

Attachment A: Response to Question #6
Capstone IPT Representative High Priority Technology Areas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            Border Security: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need improved ballistic protection via      Ballistic Protection:
 personal protective equipment.              Provides improved ballistic
                                             protection for personnel
                                             (Borders/Maritime Division
                                             Lead)
------------------------------------------------------------------------
Need to improve detection, tracking, and    BorderNet: Provides improved
 identification of all threats along the     surveillance and data
 terrestrial and maritime border.            integration tool for real
                                             time detection, tracking,
                                             identification and
                                             classification of targets
                                             in land, maritime, air
                                             (Borders/Maritime Division
                                             Lead)
------------------------------------------------------------------------
Need ability to access ICE databases in     Voice Linking System
 which voice information is entered;         Modernization: Provides
 provide analytical, reporting, and          improved identification,
 automated case deconfliction; classify,     analysis, sharing and
 identify voice samples.                     storing of telephone voice
                                             data (C2I Division)
------------------------------------------------------------------------
Need non-lethal compliance measures for     Pursuit Termination:
 vehicles, vessels, or aircraft allowing     Provides non-lethal
 for safe interdiction by law enforcement    compliance measures for
 personnel.                                  vehicles, vessels, and
                                             personnel to allow safe
                                             interdiction by law
                                             enforcement personnel
                                             (Borders/Maritime Division
                                             Lead)
------------------------------------------------------------------------
Need non-destructive tools that allow for   Hidden Compartment
 the inspection of hidden or closed          Inspection Device: Provides
 compartments to find contraband or          non-intrusive inspection
 security threats.                           tools to identify hidden
                                             compartments in vehicles
                                             and containers (Borders/
                                             Maritime Division Lead)
------------------------------------------------------------------------
Need improved analysis and decision-making  SBI Systems Engineering and
 tools that will ensure the development/     Modeling and Simulation:
 implementation of border security           Provides Modeling and
 initiatives.                                simulation decision-making
                                             tools to inform development
                                             and implementation of
                                             border security initiatives
                                             (Borders/Maritime Division
                                             Lead)
------------------------------------------------------------------------
Need the ability to non-intrusively         Project Hostile Intent:
 determine the intent of subjects during     Provides determination of
 questioning.                                intent devices for
                                             interviews (Human Factors
                                             Division)
------------------------------------------------------------------------
Need the ability for law enforcement        Gunfire Locator: Provides
 personnel to quickly identify the origin    the capability to locate
 of gunfire and classify the type of         gunfire and classify
 weapon fired.                               weapons (Borders/Maritime
                                             Division Lead)
------------------------------------------------------------------------
Need the ability for law enforcement        Less-Lethal Compliance
 officers to assure compliance of lawful     Measures: Provides improved
 orders using non-lethal means.              less-lethal capabilities to
                                             law enforcement personnel
                                             (Borders/Maritime Division
                                             Lead)
------------------------------------------------------------------------


             Cargo Security: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need enhanced screening and examination by  CanScan: Provides enhanced
 non-intrusive inspection.                   capability to detect or
                                             identify terrorist or
                                             contraband items (Borders/
                                             Maritime Division)
------------------------------------------------------------------------
Need increased information fusion, anomaly  Automatic Target
 detection, Automatic Target Recognition     Recognition: Provides
 capability.                                 information fusion, anomaly
                                             detection, and automatic
                                             target recognition systems
                                             to identify high threat
                                             cargo and ensure its
                                             delivery (Borders/Maritime
                                             Division)
------------------------------------------------------------------------
Need to detect and identify WMD materials   Requirements Analysis for
 and contraband.                             WMD Sensor: Develop
                                             requirements for developing
                                             WMD sensors applicable to
                                             the cargo security
                                             environment, with
                                             multimodal considerations
------------------------------------------------------------------------
Need capability to screen 100% of air       Requirements Analysis for
 cargo.                                      Bulk/Break-Bulk: Analysis
                                             to develop methods for
                                             securing and monitoring
                                             bulk/break bulk cargo
                                             shipped by air or maritime
                                             (Borders/Maritime Division)
------------------------------------------------------------------------
Need to test the feasibility of seal        Secure Carton Testing:
 security; Detection of intrusion.           Develop and test advanced
                                             non-intrusive inspection
                                             methods (Borders/Maritime
                                             Division)
------------------------------------------------------------------------
Need to track domestic high-threat cargo..  Domestic High Threat Cargo
                                             Tracking: Enhances Marine
                                             Asset Tag and Tracking
                                             System capability (Borders/
                                             Maritime Division)
------------------------------------------------------------------------
Need to harden air cargo conveyances and    Air Cargo Composite
 containers.                                 Container: Develop
                                             materials for hardening air
                                             cargo conveyances (Borders/
                                             Maritime Division)
------------------------------------------------------------------------
Need Positive ID of cargo & detection of    Advanced Container Security
 intrusion or unauthorized access.           Device: Provides improved
                                             cargo security devices
                                             including container
                                             intrusion detection
                                             (Borders/Maritime Division)
------------------------------------------------------------------------


            Chem/Bio Defense: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need tools to detect and mitigate animal    Foreign Animal Disease
 disease breakouts.                          Modeling: Provides tools to
                                             detect and mitigate
                                             catastrophic animal disease
                                             outbreaks (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need policy net assessments to provide      Bio-Defense Net Assessments:
 fresh perspectives on fundamental           Provides recommendations
 elements of the national biodefense         for rebalancing and
 strategy.                                   refining investments among
                                             the pillars of our overall
                                             biodefense policy (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need improved tools for integrated CBRN     Bio-Threat Characterization
 Risk Assessment.                            Center (BTCC): Provides
                                             improved tools for
                                             integrated CBRN risk
                                             assessments to include
                                             traditional and emerging
                                             bio, chem and agricultural
                                             threats and human health
                                             and economic effects (Chem-
                                             Bio Division)
------------------------------------------------------------------------
Need an incident characterization           Systems Approaches for
 capability for response & restoration.      Restoration: Provides a
                                             systems approach to rapidly
                                             restore large areas after
                                             bio or chemical attack
                                             (Chem-Bio Division)
------------------------------------------------------------------------
Need improved ChemBio Forensic Analysis     Bio Forensics R&D Near Term:
 capability.                                 Provides improved
                                             biological and chemical
                                             forensic capabilities,
                                             including sample handling
                                             and extraction, and bio-
                                             phys-chemical
                                             characterization (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need national-scale detection               Chemical Security Analysis
 architectures and strategies to address     Center (CSAC): Provides
 outdoor, indoor (e.g., highly trafficked    analysis and scientific
 transportation hubs) and critical           assessment of the chemical
 infrastructure.                             threat against our civilian
                                             population (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need consequence assessments of attacks on  Chemical Infrastructure Risk
 chemical facilities and Chem Bio attacks    Assessments: Consequence
 on other critical infrastructure.           assessments of attacks on
                                             chemical facilities and
                                             chem bio attacks on other
                                             critical infrastructure,
                                             including cascading effects
                                             on other sectors (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need Integrated CBRNE Sensor Reporting      Integrated CBRNE Detection
 capability.                                 System: Provides an
                                             integrated CBRNE sensor
                                             reporting capability in
                                             support of a common
                                             operating picture (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need handheld rapid biological and          Next Gen Low Vapor Pressure
 chemical detection systems.                 Chemicals Detection Systems
                                             (LVPCDS): Provide handheld,
                                             rapid, biological and
                                             chemical detection systems
                                             with broad agent coverage
                                             and extremely low false
                                             alarm rates (Chem-Bio
                                             Division)
------------------------------------------------------------------------
Need detection paradigms and systems for    Next Generation Biological
 enhanced, emerging and novel biological     Detection System: Develop
 threats.                                    technologies and systems to
                                             identify unknown and
                                             emerging biological threats
                                             (Chem-Bio Division)
------------------------------------------------------------------------


             Cyber Security: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need secure protocols                       Securing the Infrastructure:
                                             Provide secure protocols
                                             including standard security
                                             methods (C2I Division)
------------------------------------------------------------------------
Need Process Control Systems (PCS)          Securing the Infrastructure:
 Security.                                   Provide Process Control
                                             Systems (PCS) Security (C2I
                                             Division)
------------------------------------------------------------------------
Need large-scale cyber security test beds.  Enabling Technologies for
                                             Cyber Security &
                                             Information Assurance R&D:
                                             Provide improved capability
                                             to model the effects of
                                             cyber attacks and
                                             understanding of internet
                                             topography (C2I Division)
------------------------------------------------------------------------
Need composable and scalable secure         Advanced and Next Generation
 systems.                                    Systems & Architectures:
                                             Provide comprehensive next-
                                             generation network models;
                                             (C2I Division)
                                            Composable and scalable
                                             secure systems (C2I
                                             Division)
------------------------------------------------------------------------


         Explosives Prevention: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need standoff detection on persons          Suicide bomb detection:
 (portable solutions).                       Provide standoff portable
                                             explosive detection system
                                             for all operating
                                             environments (e.g., suicide
                                             bombers, backpack-sized
                                             explosives, ferries, cruise
                                             ships, and field operating
                                             environments) (Explosives
                                             Division)
------------------------------------------------------------------------
Need system solution for detection in       Automated Carried Bag EDS:
 baggage (checked & carried).                Provides system solution
                                             for detection in baggage
                                             (checked & carried)
                                             including air cargo
                                             (Explosives Division)
------------------------------------------------------------------------
Need capability to detect VBIED / large     Vehicle Borne Improvised
 threat mass (container, trailer, ship,      Explosive Device / Large
 vessel, car, rail).                         threat mass detection for
                                             the transit environment:
                                             Provide capability for
                                             Large threat mass detection
                                             for the transit environment
                                             (Explosives Division)
------------------------------------------------------------------------
Need capability to detect homemade or       Stand-alone technologies for
 novel explosives.                           detection of homemade or
                                             novel explosives: Provide
                                             homemade/ novel explosives
                                             detection characterization
                                             and detection capability
                                             (Explosives Division)
------------------------------------------------------------------------
Need the capability to assess, render       Render Safe Technologies:
 safe, and neutralize explosive threats.     Provide capability to
                                             assess, render safe, and
                                             neutralize explosive
                                             threats (Explosives
                                             Division)
------------------------------------------------------------------------
Need to optimize canine explosive           Canine explosive detection
 detection capability.                       optimization: Optimize
                                             canine explosive detection
                                             (Explosives Division)
------------------------------------------------------------------------
Need a systems solution for detection in    Manhattan II: Provides a
 baggage (checked & carried).                system solution for
                                             detection in baggage
                                             (checked & carried)
                                             (Explosives Division)
------------------------------------------------------------------------


          Incident Management: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need an integrated Modeling, Mapping and    Simulation Based Incident
 Simulation capability.                      Planning and Response:
                                             Provides integrated and
                                             enhanced modeling and
                                             simulation for incident
                                             planning and response (IP/
                                             Geophysical Division)
------------------------------------------------------------------------
Need a Personnel Monitoring (Emergency      Advanced First Responder
 Responder Locator System) capability.       Locator System: Provide
                                             emergency responder locator
                                             systems for rapid
                                             identification of downed or
                                             at risk responders in
                                             complex threat environments
                                             (IP/Geophysical Division)
------------------------------------------------------------------------
Need a Personnel Monitoring (Physiological  Advanced First Responder
 Monitoring of Firefighters) capability.     Physiological Monitoring
                                             System: Provides a
                                             physiological monitoring
                                             capability (IP/Geophysical
                                             Division)
------------------------------------------------------------------------
Need an Incident Management Enterprise      Advanced Incident Management
 System.                                     Enterprise System: Provides
                                             an Incident Management
                                             Enterprise System that
                                             includes web-based
                                             collaboration and tracking
                                             tools that are field
                                             deployable and
                                             interoperable across
                                             multiple agencies (IP/
                                             Geophysical Division)
------------------------------------------------------------------------
Need a logistics management tool..........  Incident Logistics and
                                             Resource Tracking System:
                                             Provides Logistics
                                             management tools and
                                             improved in-transit
                                             logistics visibility (IP/
                                             Geophysical Division)
------------------------------------------------------------------------


          Information Sharing: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need Data Fusion from multiple sensors....  COP Data Fusion Technologies
                                             Pilot: Provides capability
                                             to fuse data from multiple
                                             sensors into Common
                                             Operating Picture (COP)
                                             (C2I Division)
------------------------------------------------------------------------
Need to improve real-time Data Sharing      Suspicious activity
 across agencies on encounters.              reporting and Pilots:
                                             Provides ability to improve
                                             real-time data sharing of
                                             law enforcement information
                                             (C2I Division)
------------------------------------------------------------------------
Need to manage identities and establish     Network Identity Management
 interoperability with Identity              and Pilot: Provides ability
 Adjudication Support Systems.               to manage user identities,
                                             rights and authorities (C2I
                                             Division)
------------------------------------------------------------------------
Need distribution capability for            Multi-Level Intelligence
 Intelligence Products.                      Dissemination: Provides
                                             ability to support
                                             distribution of
                                             intelligence products (C2I
                                             Division)
------------------------------------------------------------------------
Need capability to share information        Threat Dissemination
 within and across sectors on terrorist      Standards: Provides
 threats.                                    standards and protocols for
                                             information sharing within
                                             and across sectors on
                                             terrorist threats (C2I
                                             Division)
------------------------------------------------------------------------
Need real-time Data Processing and          Real Time Data Processing
 Visualization.                              and Visualization: Provides
                                             automated, dynamic, real-
                                             time data processing and
                                             visualization capability
                                             (C2I Division)
------------------------------------------------------------------------
Need analytic capabilities for structured,  Integrated Data Processing
 unstructured, and streaming data.           and Analysis: Provides
                                             analytic capabilities for
                                             structured, unstructured,
                                             and streaming data (C2I
                                             Division)
------------------------------------------------------------------------
Need information sharing capability for     USCG Collective Situational
 Situational Awareness between USCG and      Awareness Pilot: Provides
 Partners.                                   capability for the USCG to
                                             exchange information across
                                             disparate National System
                                             security networks (C2I
                                             Division)
------------------------------------------------------------------------
Need Sensor Fusion between Law Enforcement  Sensor fusion between law
 and Intelligence Partners.                  enforcement and
                                             intelligence partners (C2I
                                             Division)
------------------------------------------------------------------------


       Infrastructure Protection: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need analytical tools to quantify           Unified Blast Analysis Tool:
 interdependencies and cascading             Provides ability to
 consequences as disruptions occur across    identify existing
 critical infrastructure sectors.            vulnerabilities to blast,
                                             evaluates protective
                                             measures, and provides
                                             design guidance for blast
                                             resistant construction (IP/
                                             Geophysical Division)
------------------------------------------------------------------------
Need analytical tools to quantify           Real-Time Decision Support
 interdependencies and cascading             Tools: Provides tools for
 consequences as disruptions occur across    federal decision-makers
 critical infrastructure sectors.            that update models
                                             dynamically during crises
                                             (IP/Geophysical Division)
------------------------------------------------------------------------
Need effective and affordable blast         Protective Measures Advanced
 analysis and protection for critical        Materials Design Tools:
 infrastructure; improved understanding of   Provides capability to
 blast failure mechanisms and protection     address high consequence
 measures for the most vital CI/KR.          critical assets, as
                                             identified by the Office of
                                             Infrastructure Protection,
                                             including mitigation and
                                             hardening technologies and
                                             advanced materials (IP/Geo
------------------------------------------------------------------------
Need analytical tools to quantify           Real-Time Decision Support
 interdependencies and cascading             Tools: Provides rapid and
 consequences as disruptions occur across    automated response
 critical infrastructure sectors.            technologies to limit
                                             damage from disruptions of
                                             critical infrastructure and
                                             prevent cascading effects
                                             (IP/Geophysical Division)
------------------------------------------------------------------------
Need advanced, automated and affordable     Advanced Surveillance
 monitoring and surveillance technologies.   Systems: Provides advanced,
                                             automated, affordable
                                             monitoring and surveillance
                                             technologies to provide
                                             situational awareness at CI/
                                             KR (C2I Division)
------------------------------------------------------------------------


            Interoperability: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need to research, test, and evaluate IP-    IP Enabled Backbone
 enabled backbones.                          Evaluation: Develops and
                                             evaluates Internet Protocol
                                             (IP) enabled backbones (C2I
                                             Division)
------------------------------------------------------------------------
Need test and evaluation on commercially    Wireless Broadband Standards
 available and emergent wireless broadband   and Broadband
 data.                                       Productization: Provides
                                             test and evaluation of
                                             emergent wireless broadband
                                             data systems (C2I Division)
------------------------------------------------------------------------
Need to accelerate the development and      P25 Interface: Accelerates
 testing of P25 IP-based interfaces.         test and evaluation of P25
                                             IP-based interfaces (C2I
                                             Division)
------------------------------------------------------------------------
Need to develop messaging interface         EDXL Data Standards
 standards that enable emergency             Initiative: Identifies and
 information sharing and data exchange.      develops messaging
                                             interface standards (C2I
                                             Division)
------------------------------------------------------------------------


           Maritime Security: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need for wide-area surveillance from the    Affordable Wide Area
 coast to beyond the horizon; port and       Surveillance System:
 inland waterways region--detect, ID, and    Provides persistent,
 track.                                      integrated sensor systems
                                             that can detect, track, and
                                             identify vessels
                                             (especially small vessels)
                                             between the port regions
                                             and beyond the horizon in
                                             all weather conditions
                                             (Borders/Maritime
------------------------------------------------------------------------
Need data fusion and automated tools for    Advanced Automated Scene
 command center operations.                  Understanding: Provides
                                             Tactical Information Fusion
                                             and Situational Assessment
                                             tools that improve operator
                                             performance (Borders/
                                             Maritime Division Lead)
------------------------------------------------------------------------
Need for vessel compliance through non-     Pursuit Termination:
 lethal compliance methods.                  Provides non-lethal
                                             compliance measures for
                                             vessels (Borders/Maritime
                                             Division Lead)
------------------------------------------------------------------------
Need an enhanced capability to              Covert Illegal Contraband
 continuously track contraband on ships or   Tracker: Provides improved
 containers.                                 system for tracking
                                             contraband shipments and
                                             aliens including at night
                                             tracking or rough seas
                                             tracking (Borders/Maritime
                                             Division)
------------------------------------------------------------------------
Need improved ballistic personal            Ballistic Protection:
 protective equipment for officer safety.    Provides improved ballistic
                                             protection and
                                             communications tools for
                                             agents (Borders/Maritime
                                             Division Lead)
------------------------------------------------------------------------
Need improved WMD detection equipment for   Technology to screen
 officer safety; improved screening          passengers, baggage, and
 capability for WMD for maritime security    vehicles for explosives,
 checkpoints.                                contraband and CBRN in the
                                             high volume environment of
                                             maritime ferries and cruise
                                             ships (Borders/Maritime
                                             Division Lead)
------------------------------------------------------------------------


            People Screening: Representative Technology Needs
------------------------------------------------------------------------
          Capability Gap Summary            Enabling Homeland Capability
------------------------------------------------------------------------
Need systematic collection and analysis of  Group Violent Intent
 information related to understanding        Modeling: Provides tools
 terrorist group intent to engage in         for understanding terrorist
 violence.                                   group intent to engage in
                                             violence (Human Factors
                                             Division)
------------------------------------------------------------------------
Need non-invasive monitoring: Identifying   Hostile Intent Detection:
 and tracking unknown or potential threats   Provides non-invasive
 from individuals at key checkpoints. Real-  monitoring technologies to
 time detection of deception or hostile      allow identification and
 intent through integrated system of human   tracking of potentially
 and machine methods.                        threatening individuals at
                                             key checkpoints (Human
                                             Factors Division)
------------------------------------------------------------------------
Need the capability in real-time for        Biometrics Spiral II:
 positive verification of individual's       Provides real-time,
 identity utilizing multiple biometrics.     positive verification of
                                             identity using multiple
                                             biometrics (Human Factors
                                             Division)
------------------------------------------------------------------------
Need the capability for secure, non-        Credentialing: Provides
 contact electronic credentials;             secure, non-contact
 contactless readers or remote               electronic credentials
 interrogation technologies for electronic   capability (Human Factors
 credentials.                                Division)
------------------------------------------------------------------------
Need mobile biometrics screening            Mobile Biometrics Screening:
 capabilities, to include hand-held,         Provides mobile biometrics
 wireless, and secure devices.               screening capabilities to
                                             include hand-held,
                                             wireless, and secure
                                             devices (Human Factors
                                             Division)
------------------------------------------------------------------------
Need high-speed, high-fidelity ten-print    Ten Print Capture: Provides
 capture capability.                         high-speed, high-fidelity
                                             ten-print capture
                                             capability (Human Factors
                                             Division)
------------------------------------------------------------------------

Attachment B: Response to Question #6
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



------------------------------------------------------------------------
                                                     Focus Areas
------------------------------------------------------------------------
Information Sharing/Management
                                            Information Interoperability
                                             (class to unclass,
                                             disparate database
                                            Reconnassance, Surveillance,
                                             and Investigative
                                             technology
                                            Common Operating Picture
                                             systems and tools
                                            Knowledge Management
                                             Information analytic tools
Border Security
                                            Land border Enforcement
                                            SBI Systems approach
                                            Immigration Enforcement
                                            Non-intrusive Detection at
                                             Borders
Chem/Bio Defense
                                            Bio and Chem Threat
                                             Assessments
                                            Bio and Chem risk decision
                                             support tools
                                              Chem
                                                  Forensics and Analysis
                                                  Surveillance and
                                             Detection systems
                                                  Response and Recovery
                                             systems
                                                Bio
                                                  Agricultural Security
                                                  Bio Forensics
                                                  Surveillance and
                                             Detection systems
                                             (including Biowatch)
Maritime Security
                                            Boarding Officer tools and
                                             protection
                                            Maritime surveillance
                                             technologies
                                            Command Center data fusion
Explosive Prevention
                                            Counter-MANPADS
                                            IEDs
                                            Standoff Detection
                                            Explosives Detectors
                                            Blast Mitigation
                                            Personnel Screening for
                                             explosives
Incident Management
                                            Personnel monitoring and
                                             tracking
                                            Situational awareness
                                            Logisitics issues
                                            Protection of emergency
                                             personnel
People Screening
                                            People Screening at
                                             Checkpoint
                                            Hostile Intent and Deception
                                            Identity Management
                                             (includes Biometrics)
                                            Credentialing
                                            Social and Behavioral Threat
                                             analysis
                                            Insider Threat
                                            Human systems integration
                                             into technology
Infrastructure Protection
                                            Critical Infrastructure
                                             modeling and simulation
                                             analysis
                                            Risk Reduction Technologies
                                            Protection and mitigation
                                             for critical IP sectors
                                            Response and restoration of
                                             CI/K
                                            Advanced surveillance and
                                             detection to protect CI/KR
Cargo Security
                                            Security Devices
                                            Cargo tracking systems
                                            Supply chain architecture
                                            Integration of detection
                                             systems specific to cargo
Interoperability
                                            first Responder
                                             communications
Cybersecurity
------------------------------------------------------------------------

Attachment C: Response to Question #9
    Science & Technology Directorate, Intergovernmental Personnel Act 
(IPA) Program Reference Guide, April 2006.\1\
---------------------------------------------------------------------------
    \1\ See committee file.
---------------------------------------------------------------------------
Attachment D: Response to Question #12

                             Chart Summary


------------------------------------------------------------------------
                                                        Actions planned
       Program           Rating        Improvement      for FY  2007 and
                                      Actions Taken         FY 2008
------------------------------------------------------------------------
Biological             Effective   (1) Developed
 Countermeasures                    qualitative and
(Chemical and                       quantitative
 Biological)                        metrics
                                   (2) Developed a 5
                                    year plan based
                                    on requirements
                                    identified
                                    through the IPT
                                    Capstone process
                                    that was chaired
                                    by the Chief
                                    Medical Officer
                                    and the Assistant
                                    Secretary of
                                    Infrastructure
                                    Protection.
                                   (3) Reviews the
                                    programmatic and
                                    technical
                                    progress of key
                                    projects that
                                    contribute to the
                                    PART on a monthly
                                    basis -conducted
                                    by the Division
                                    Head.
                                   (4) Chem
                                    Countermeasures
                                    underwent
                                    independent
                                    evaluation with
                                    positive findings
                                   (1) Develop
                                    efficiency
                                    metrics
------------------------------------------------------------------------
Standards (T&E and     Adequate    (1) Developed       (1) Develop
 Standards)                         quantitative        efficiency
                                    metrics             metrics
                                   (2) Convened the
                                    standards council
                                    to ensure agency
                                    wide gathering of
                                    standards needs.
------------------------------------------------------------------------
Threat Awareness       Results     (1) Developed       (1) Develop
 Portfolio              Not         quantitative        efficiency
(C2I and Human         Demonstrat   metrics            (1) Develop
 Factors)               ed         (2) External         additional
                                    evaluation of       quantitative and
                                    program commenced   qualitative
                                    summer 2005         metrics
------------------------------------------------------------------------
University Programs    Moderately  (1) Developed       (1) Continue
(Research Division)    Effective    quantitative        external review
                                    metrics             of program and
                                   (2) External         Centers of
                                    review of program   Excellence
                                    and one DHS
                                    Center of
                                    Excellence held
                                    in 2005 and 2006
                                    respectively
                                   (3) External
                                    assessment of
                                    program planned
                                    for the fall of
                                    2006
                                   (4) Independent
                                    review of two
                                    centers planned
                                    for fall 2006
------------------------------------------------------------------------
Emerging Threats       Moderately  (1) Developed       (1) Develop
 (C2I)                 Effective    quantitative        efficiency
                                    metrics
------------------------------------------------------------------------
Rapid Prototyping      Moderately  (1) Developed       (2) Plans for
 (Transition)          Effective    quantitative        regular
                                    metrics 1)          independent
                                    Develop             reviews are
                                    efficiency          scheduled to
                                                        begin in FY 2007
------------------------------------------------------------------------
Chemical and           Results     (1) Developed       (1) Development
 Explosives             Not         metrics for major   of expenditure
 Countermeasures        Demonstra   chemical projects   plan in process
 (Explosives)           ted        (2) Scores and      (2) Engage in
                                    recommendations     dialogue with
                                    discussed with      the GAO, IG and
                                    planning staff      other
                                    and senior          independent
                                    management          evaluators
                                   (4) Completed
                                    Countermeasures
                                    expenditure plan
                                    in October 2006
------------------------------------------------------------------------
Interoperability and   Results     (1) Scores and      (1) External
 Compatibility (C21)    Not         recommendations     review of
                        Demonstra   discussed with      program planned
                        ted         planning staff     (2) Development
                                    and senior          of strategic
                                    management          plan
                                   (2) Engaged in      (3) Engaged in
                                    dialogue with the   dialogue with
                                    GAO throughout      the GAO, IG and
                                    the fall.           other
                                   (3) Engaged an       independent
                                    independent         evaluators
                                    evaluator to       (4) Develop
                                    conduct a study     efficiency and
                                    of OIC              additional
                                    effectiveness and   metrics
                                    coordination with
                                    its partners and
                                    stakeholders. The
                                    study is
                                    currently in
                                    progress.
------------------------------------------------------------------------
SAFETY Act             Results     (1) Scores and      (1) Development
 (Transition)           Not         recommendations     of stategic/
                        Demonstra   discussed with      program plan
                        ted         planning staff     (2) Development
                                    and senior          of additional
                                    mangement           metrics planned
                                   (2) External (IG)   (3) Develop
                                    review in August    efficiency
                                    2006 resulted in    metrics
                                    certified and
                                    accredited
                                    computer system
                                   (3) Streamlined
                                    evaluation
                                    process,
                                    improving FY 2006
                                    performance by
                                    27%
------------------------------------------------------------------------

                                 <all>

</pre></body></html>
